No.

IN THE SUPREME COURT OF THE UNITED STATES

CAPITAL ASSOCIATED INDUSTRIES, INC.,
Applicant,
V.

JOSH STEDST, in his official capacity as Attorney General of the State of North Carolina;
NANCY LORRIN FREEMAN, in her official capacity as District Attorney for the 10th
Prosecutorial District of the State of North Carolina; J. DOUGLAS HENDERSON, in his
official capacity as District Attorney for the 18th Prosecutorial District of the State of North
Carolina,
and

NORTH CAROLINA STATE BAR,
Respondents.

APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A WMT OF
CERTIORARI TO THE FOURTH CIRCUIT COURT OF APPEALS

To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme Court of the United
States and Circuit Justice for the Fourth Circuit:
Pursuant to this Court's Rule 13.5, applicant Capital Associated Industries respectfully
requests a 43-day extension of time, to and including August 30, 2019, in which to file a petition
for a writ of certiorari in this case. The United States Court of Appeals for the Fourth Circuit
entered judgment on April 19, 2019. App. A, infra. Absent an extension, therefore, a petition
for a writ ofcertiorari would be due on July 18, 2019.

Applicant does not have any parent corporation, and no publicly held company owns
10% or more of its stock.

1. Capital Associated Industries is a trade association of employers in North Carolina that
seeks to improve employment relations across the state. North Carolina's unauthorized practice
of law statutes forbid Capital Associated Industries from employing licensed attorneys who
would offer legal services to its members to further the association's mission.

2. After the North Carolina State Bar adopted an ethics opinion advising that Capital
Associated Industries would violate the unauthorized practice of law statutes if it employed
lawyers who gave legal advice to its members. Capital Associated Industries brought this
lawsuit, naming the North Carolina Attorney General and certain district attorneys as defendants.
The North Carolina State Bar intervened as a defendant.
3. The district court granted summary judgment to the defendants, concluding that
enforcement of the unauthorized practice of law statutes against Capital Associated Industries
would not violate the First Amendment. App. B, infra.
4. The court of appeals affirmed the denial on appeal. The court of appeals acknowledged
that the case presented an "admittedly close" question of interpreting this Court's precedent
regarding the First Amendment freedom of association. App. A at 205; see In re Primus, 436
U.S. 412 (1978); Bhd. ofR.R. Trainmen v. Va. Ex rel. Va. State Bar, 377 U.S. 1 (1964); United
Mine Workers v. III. State BarAss'n, 389 U.S. 217 (1967); United Transp. Union v. State Bar of
Mich., 401 U.S. 576 (1971). The court also determined that North Carolina's unauthorized
practice of law statute is a regulation of professional conduct that incidentally burdens speech,
and that the law need only pass intermediate scrutiny. App. A at 207; Nat'l Inst. of Family &

Life Advocates v. Becerra (NIFLA), 138 S. Ct. 2361 (2018).
5. Since the decision below was issued. Applicant has been considering whether to seek this
Court's review. Having recently determined that seeking the review of this Court is warranted

and appropriate, Applicant respectfully requests additional time to prepare and print the petition.
The additional time is necessary because of deadlines in other cases for which the undersigned
counsel are also responsible.

6. This Court would have jurisdiction pursuant to 28 U.S.C. § 1254(1).
7. The requested extension would not result in unfair prejudice to Defendants. Even if the
extension is granted and this Court were to grant certiorari, the case would likely be heard and
decided by the Court in the upcoming Term.
For the foregoing reasons. Capital Associated Industries respectfully requests that the

time for filing a petition for a writ of certiorari in this case be extended to and including August
30,2019.

Respectfully submitted.

^

^

JULIA C. AMBROSE
CRAIG SCHAUER
ERIC F. FLETCHER

REID L. PHILLIPS
BROOKS, PIERCE, MdENDON,
HUMPHREY & LEONARD

BROOKS, PIERCE, MCLENDON,

230 N. Elm St.

HUMPHREY & LEONARD

2000 Renaissance Plaza

15 OFayetteville Street
1700 Wells Fargo Capitol Center

Greensboro, NC 27401

Raleigh, NC 27601
(919)839-0300

rphillips@brookspierce.com

jambrose@brookspierce.com

Counsel for Applicant

cschauer@brookspierce.com
efletcher@brookspierce.com

June 10, 2019

(336)373-8850

PROOF OF SERVICE
I hereby certify that on June 10, 2019,1 caused copies of the foregoing Application for

Extension of Time in Which to File a Petition for a Writ ofCertiorari to the Fourth Circuit to be
served on the following by first-class mail, postage prepaid, and electronic mail as required by

the Rules of this Court:

Matthew W. Sawchak

Alan W. Duncan

James W. Doggett

Stephen M. Russell, Jr.

N.C. DEPARTMENT OF JUSTICE

MULLINS DUNCAN HARRELL &
RUSSELL PLLC

P.O. Box 629

Raleigh, NC 27602
(919) 716-6500

300 N. Greene St., Suite 2000

msawchak@ncdoj .gov

(336) 645-3320

j doggett@ncdoj. gov

aduncan@mullinsduncan.com

Greensboro, NC 27401

srussell@mullmsduncan. corn
Counsel for Defendants Josh Stein, Nancy
Lorrin Freeman, and J. Douglas Henderson,

Counsel for Defendant North Carolina State

in their official capacities

Bar

Reid L. Phillips
BROOKS, PIERCE, MCLENDON,

HUMPHREY & LEONARD
230 N. Elm St.
2000 Renaissance Plaza
Greensboro, NC 27401

(336)373-8850
rphillips@brookspierce.com

No.

IN THE SUPREME COURT OF THE UNITED STATES

CAPITAL ASSOCIATED INDUSTRIES, INC.,
Applicant,
V.

JOSH STEDST, in his official capacity as Attorney General of the State of North Carolina;
NANCY LORRIN FREEMAN, in her official capacity as District Attorney for the 10th
Prosecutorial District of the State of North Carolina; J. DOUGLAS HENDERSON, in his
official capacity as District Attorney for the 18th Prosecutorial District of the State of North
Carolina,
and

NORTH CAROLINA STATE BAR,
Respondents.

APPENDIX

A. Decision by the United States Court of Appeals for the Fourth Circuit (Apr. 19, 2019)
B. Summary Judgment Decision by the United States District Court for the Middle District
of North Carolina (Sept. 19, 2017)

A

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

922 F.3<i 198
United States Court of Appeals, Fourth Circuit.

CAPITAL ASSOCIATED INDUSTRIES,
INCORPORATED, Plaintiff - Appellant,
V.

Josh STEIN, in his official capacity as Attorney
General of the State of North Carolina; Nancy
Lorrin Freeman, In her official capacity as District

[3] intermediate scrutiny was appropriate standard for
reviewing free speech challenge to statutes;

[4] statutes satisfied intermediate scrutiny under First
Amendment;

[5] statutes survived rational basis review under Due
Process Clause; and

[6] statutes were not unconstitutionally vague.

Attorney for the loth Prosecutorial District of the
State of North Carolina; J. Douglas Henderson,
In his official capacity as District Attorney for

Affirmed.

the l8th Prosecutorial District of the State
of North Carolina, Defendants - Appellees,
and

West Headnotes (24)

North Carolina State Bar,
Intervenor/Defendant - Appellee.
No.17-2218

I
Argued: December 13, 20i8

I
Decided: April 19, 2019

[1] Federal Courts
'*= Determination of question of jurisdiction
Even if the parties briefs do not address
standing, the Court of Appeals must assure

itself of its jurisdiction.
Cases that cite this headnote

Synopsis
Background: Trade association representing North
Carolina employers, which sought to provide legal
services for its members, brought action against North

Carolina prosecutors, alleging that enforcement of North
Carolina's unauthorized practice of law statutes against

[2] Corporations and Business Organizations
'9s- Persons entitled to sue; standing

Declaratory Judgment
">ss* Subjects of relief in general

association was unconstitutional and seeking declaratory

Trade association representing North

and injunctive relief. After North Carolina State Bar

Carolina employers, which sought to provide

intervened as a defendant, the United States District

legal services for its members, had standing

Court for the Middle District of North Carolina, 283

to bring action against North Carolina

F.Supp.3d 374, granted summary judgment in favor of

prosecutors for declaratory and injunctive

defendants. Association appealed.

relief that would prevent enforcement of

North Carolina's unauthorized practice of
law statutes against association; association

Holdings: The Court of Appeals, Diaz, Circuit Judge, held
that:
[1] the statutes did not violate association's associational
rights under the First Amendment;

faced a credible threat of prosecution, that
injury was traceable to the prosecutors, and

enjoining enforcement of the statutes would
provide association relief. N.C. Gen. Stat.

Ann. §§ 84-5(a), 84-7, 84-8(a), 84-37.
Cases that cite this headnote

[2] ban on practice of law by corporations was a
professional conduct regulation that incidentally effected
speech;

[3] Federal Courts

WE&T1.AW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

€— Summary judgment

North Carolina's unauthorized practice of

Court of Appeals reviews the district court's

law statutes, which barred corporations from

grant of summary judgment de novo.

practicing law, did not unconstitutionally
restrict associational rights of trade

Cases that cite this headnote

association, which represented North

Carolina employers and sought to provide
[4] Federal Courts
ws' Summary judgment

Federal Courts
<vas Summary judgment
When reviewing a grant of summary

legal services for its members; association
sought to practice law in order to increase
revenues and attract new members, not to
express a message, allowing association to

practice law would not facilitate access to
courts, and association's proposed practice

judgment, the Court of Appeals applies the

of law could compromise independence and

same legal standards as the district court, and

professional judgment of lawyers mvolved.

views aU facts in the light most favorable to

U.S. Const. Amend. 1; N.C. Gen. Stat. Ann.

the nonmoving party.

§§ 84-5(a), 84-7, 84-8(a), 84-37.

Cases that cite this headnote

Cases that cite this headnote

[5] Constitutional Law
€=0 Invalidity as applied

[8] Constitutional Law
<^> Trade or Business

"As-applied" challenges test the

Under the First Amendment, there is

constitutionality of a statute applied to the

more deferential review for requirements

plaintiff based on the record.

that professionals disclose factual,

Cases that cite this headnote

[6] Federal Courts

noncontroversial information in their
commercial speech. U.S. Const. Amend. 1.

Cases that cite this headnote

v Constitutional questions
Trade association representing North
Carolina employers preserved for appellate

[9] Constitutional Law
6a Trade or Business

review its argument that North Carolina's

States may regulate professional conduct

unauthorized practice of law statutes

without violating the First Amendment, even

infringed on its rights as an expressive

though that conduct incidentally involves

association; although association largely

speech. U.S. Const. Amend. 1.

omitted term "expressive association" before

district court, its argument fell within

Cases that cite this headnote

expressive association jurisprudence and
district court ruled on the issue. U.S. Const.
Amend. 1; N.C. Gen. Stat. Ann. §§ 84-5(a),
84-7, 84-8(a), 84-37.

Cases that cite this headnote

[10] Constitutional Law
<<- Unlicensed practice of law
North Carolina's statutory ban on practice
of law by corporations amounted to a

professional regulation that incidentally
[7] Attorney and Client
vs Constitutional and statutory provisions

Constitutional Law
€=> Freedom of Association

affected speech, thus warranting a
more deferential review under the First

Amendment; ban was part of a generally
applicable licensing regime that restricted
practice of law to bar members and

WBSTLAA'y © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

entities owned by bar members, and while

from practicing law, were sufficiently drawn

practice of law had communicative and

to state's substantial interest in regulating

non-communicative aspects. North Carolina's

the legal profession to protect clients and,

unauthorized practice of law statutes focused

thus, survived intermediate scrutiny review

on question of who could conduct themselves

under the First Amendment Free Speech

as a lawyer, not the communicative aspects

Clause; professional integrity could suffer

of practicing law. U.S. Const. Amend. 1;

if lawyers were allowed to practice on

N.C. Gen. Stat. Ann. §§ 84-5(a), 84-7, 84-8(a),

behalf of organizations owned and run

84-37.

by nonlawyers, and state addressed such

Cases that cite this headnote

problems by proscribing law practice by
organizations that posed the most danger,
while exempting organizations, such as

[11] Constitutional Law
<ws' Strict or exacting scrutiny; compelling
interest test

Content-based restrictions ordinarily receive
strict scrutiny under the First Amendment.
U.S. Const. Amend. 1.

professional corporations owned exclusively

by lawyers and public interest law firms, that
posed little danger. U.S. Const. Amend. 1;
N.C. Gen. Stat. Ann. §§ 55B-4(2), 84-5(a),
84-7, 84-8(a), 84-37, 84-5.1.

Cases that cite this headnote

Cases that cite this headnote
[15] Constitutional Law
[12] Constitutional Law
'&» Trade or Business

Intermediate scrutiny is the appropriate
standard for free speech challenges
to professional conduct regulations that
incidentally impact speech. U.S. Const.
Amend. 1.

^ Intermediate scrutiny
Under the First Amendment, intermediate
scrutiny requires only a reasonable fit between

the challenged regulation and the state's
interest, not the least restrictive means. U.S.Const. Amend. 1.

Cases that cite this headaote

Cases that cite this headnote
[16] Constitutional Law
[13] Constitutional Law
€to Intermediate scrutiny
To survive intermediate scrutiny in a First
Amendment case, the defendant must show a

substantial state interest and a solution that
is sufficiently drawn to protect that interest.
U.S. Const. Amend. 1.

'&=> Reasonableness, rationality, and

relationship to object
To pass muster under rational basis review,

legislation challenged on due process grounds
need only be rationally related to a legitimate
government interest. U.S. Const. Amend. 14.

Cases that cite this headnote

Cases that cite this headnote
[17] Attorney and Client
[14] Attorney and Client
€ss- Constitutional and statutory provisions

Constitutional Law
<w=- Unlicensed practice of law

North Carolina's unauthorized practice of
law statutes, which barred corporations

v Constitutional and statutory provisions
Constitutional Law
^ Admission and examination
North Carolina had a rational basis for
enacting its unauthorized practice of law
statutes, which barred corporations from

practicing law, and thus statutes did not

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

violate due process; there was a rational

expounded on the definition at length. U.S.

basis to restrict corporate ownership of

Const. Amend. 14; N.C. Gen. Stat. Aim.

professional businesses to protect consumers,

§§ 84-2.1 (a), 84-2. l(b), 84-2.2, 84-5(a), 84-7,

and availability of less restrictive means

84-8(a), 84-37.

was irrelevant for purposes of rational basis
review. U.S. Const. Amend. 14; N.C. Gen.

Cases that cite this headnote

Stat. Aim. §§ 84-5(a), 84-7, 84-8(a), 84-37.

Cases that cite this headnote

[21] Constitutional Law
€— Certamty and definiteness;vagueness
Fair notice, as required for a statute to

[18] Constitutional Law
v-> Certainty and definiteness;vagueness

survive vagueness challenge on due process
grounds, does not require certainty about

A statute is imconstitutionally vague under

every hypothetical situation. U.S. Const.

the Due Process Clause if it fails to

Amend. 14.

provide a person of ordinary intelligence
fair notice of what is prohibited, or is so

Cases that cite this headnote

standardless that it authorizes or encourages
seriously discriminatory enforcement. U.S.
Const. Amend. 14.

Cases that cite this headnote

[19] Constitutional Law
-jw Certainty and definiteness;vagueness

To determine if a state statute is

[22] Federal Courts
eto Highest court

Federal Courts
'i=- Inferior courts
To construe state law, Court of Appeals looks

to decisions of the state's highest court or, if
needed, decisions of the state's intermediate
appellate court.

unconstitutionally vague under the Due
Process Clause, courts examine both the

Cases that cite this headnote

statute itself and any limiting constructions
from state courts or agencies. U.S. Const.
Amend. 14.

Cases that cite this headnote

[23] Antitrust and Trade Regulation
tS^ Particular Industries or Businesses

Attorney and Client
y0 Constitutional and statutory provisions

[20] Attorney and Client
<^> Constitutional and statutory provisions

Constitutional Law
•»= Admission and examination

North Carolina's unauthorized practice of
law statutes, which barred corporations

from practicmg law, did not violate the
Monopoly Clause of the North Carolina
Constitution; Monopoly Clause allowed

North Carolina's unauthorized practice of

reasonable regulations of commerce with

law statutes, which barred corporations from

substantial relationship to public health,

practicing law, provided fau' notice of what

safety, or welfare, practice of law affected the

it meant to "practice law," and, thus, were

public interest, and unregulated practice of

not unconstitutionally vague in violation of

law could pose a danger. N.C. Const. art. 1,

due process; state law defined term "practice

§34.

law" as "performing any legal service" and

provided a lengthy list of what did and did

Cases that cite this headnote

not count as a legal service, statute prohibiting

authorized practice of law elaborated on the
definition further, and North Carolina courts

[24] Constitutional Law

WESTLAi'y © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

<s=* Unlicensed practice of law

Constitutional Law

Opinion

.6^ Advertising

North Carolina's unauthorized practice of

Affirmed by published opinion. Judge Diaz wrote the

law statutes, which barred corporations

opinion, in which Chief Judge Gregory and Senior Judge

from practicing law, did not violate free

Duncan joined.

speech rights of trade association representing
North Carolina employers, which sought to

DIAZ, Circuit Judge:

provide legal services for its members, despite

*202 Capital Associated Industries, Inc. ("CAI") is a

association's argument that it had a right to

trade association representing North Carolina employers.

advertise the legal services it wanted to offer;

As part of a plan to expand its membership, CAI

state was entitled to forbid association from

wants to provide legal services to its members. But

advertising legal services barred by law. U.S.

it cannot because state law forbids corporations from

Const. Amend. 1; N.C. Gen. Stat. Ann. §§

practicing law. Following unsuccessful lobbying efforts

84-5(a), 84-7, 84-8(a), 84-37.

to change the law, CAI sued state prosecutors to

Cases that cite this headnote

enjoin the enforcement of state unauthorized practice

of law ("UPL") statutes against it. After the North
Carolina State Bar intervened to defend the statutes, the

defendants obtained summary judgment. On appeal, CAI
*201 Appeal from the United States District Court for
the Middle District of North Carolina, at Greensboro.
Loretta C. Biggs, District Judge. (l:15-cv-00083-LCB-

JLW)

contends that North Carolina's UPL statutes violate its
constitutional rights to free association, free speech, and
commercial speech; lack a rational basis; are void for
vagueness; and violate the state constitution. For the
reasons that follow, we affirm.

Attorneys and Law Firms

ARGUED: Reid Lloyd Phillips, BROOKS, PIERCE,
MCLENDON, HUMPHREY, & LEONARD, L.L.P,
Greensboro, North Carolina, for Appellant. Alan

William Duncan, MULLINS DUNCAN HARRELL
& RUSSELL PLLC, Greensboro, North Carolina, for
Appellees. ON BRIEF: Jennifer K. Van Zant, Charles
E. Coble, Craig D. Schauer, BROOKS, PIERCE,

A.

Since 1931, the State of North Carolina has forbidden
corporations from practicing law. N.C. Gen Stat. §

MCLENDON, HUMPHREY & LEONARD, L.L.P-,

84-5(a)." To address the unauthorized practice of law, the

Greensboro, North Carolina, for Appellant. Stephen

State Bar and state prosecutors may sue for an injunction,

M. Russell, Jr., MULLINS DUNCAN HARRELL &

and prosecutors may bring misdemeanor charges. Id.

RUSSELL PLLC, Greensboro, North Carolina, for

§§ 84-37, 84-7, 84-8(a). The UPL statutes do, however,

Appellee North Carolina State Bar. Joshua H. Stein,

allow the practice of law by lawyer-owned professional

Attorney General, Matthew W. Sawchak, Solicitor

corporations, public interest law firms, and in-house

General, NORTH CAROLINA DEPARTMENT OF

counsel representing their employers. Id. §§ 55B-8, 84-5.1.

JUSTICE, Raleigh, North Carolina, for Appellees Joshua
H. Stein, Nancy Lorrin Freeman, and J. Douglas

CAI is a North Carolina nonprofit corporation that

Henderson.

claims a tax exemption under 26 U.S.C. § 501(c)(6) as

Before GREGORY, Chief Judge, DIAZ, Circuit Judge,

North Carolina employers as members and describes its

and DUNCAN, Senior Circuit Judge.

mission as fostering successful employment relationships.

a trade association of employers. It has about 1,100

CAI charges its members an annual fee adjusted for each
member's size. It competes with for-proflt businesses in
providing some services, such as recruiting, background

WISTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

checks, consulting, training, conferences, and affirmative

judgment on the pleadings. Capital Associated Indus., Inc.

action planning.

v. Cooper, 129 F.Supp.3d 281 (M.D.N.C. 2015); Capital
Associated Indus., Inc. v. Cooper, No. L15CV83, 2016 WL

One of the most popular services it provides its members

6775484 (M.D.N.C. June 23, 2016). After discovery, the

is a call center, where members can speak to CAI's staff of

parties cross-moved for summary judgment.

human resources experts. The experts can advise on HR
issues. But they can't give legal advice, even if they are

Before the district court, State Bar representatives

licensed attorneys. So, when legal issues arise, CAI's HR

expressed concerns about nonlawyers controlling

experts have to steer the conversation elsewhere, end the

litigation and receiving attorney fees, confidentiality,

conversation, or refer the member to outside counsel.

excessive fees, and the State Bar's inability to discipline

While it disclaims any interest in representing its members

conflicts of interest due to its large base of members and

in court, CAI would like to help them draft legal

the fact that its directors and officers don't have to be

documents (such as contracts or employee handbooks)

lawyers and thus wouldn't have obligations under the

and answer questions about employment and labor law. If

State Bar's Rules of Professional Conduct.

corporations. Regarding CAI, they worried about

it could practice law, CAI would offer most legal services
without charge as part of its membership fees, but *203

To assuage these concerns, CAI filed declarations from

it would charge hourly fees for certain services.

three trade organizations practicing law in other states,

and it outlined a plan to comply with ethics rules. CAI's
CAI has spent years trying to change the UPL statutes

lawyers would control legal services, make decisions about

as part of its "2X" development plan to double

conflicts of interest, and have sole access to privileged

its membership and reach. In 2011, CAI's lobbyists

communications. But CAI's directors and president would

persuaded state lawmakers to introduce bills that would

set the attorneys' salaries and the legal department's

have allowed corporations to practice law. CAI tried and

budget. And CAI declined to offer assurances that it

failed to get the State Bar to support the bills. The State

would require its directors and officers to be attorneys.

Bar instead actively opposed the bills, and they were not
enacted. CAI's lobbying efforts met a similar fate in 2013.

Some of CAI's members testified that allowing CAI

That same year, the State Bar adopted a proposed ethics

to practice law would mean that they could obtain

opinion advising that CAI would violate the UPL statutes

more efficient and cost-effective legal representation. But

if it employed lawyers to give its members legal advice.

aknost all those members said they had received legal
advice from private attorneys. Just one member said it had
gone without counsel in low-risk situations, but even it

B.

After two failed bids to achieve its goals through

found counsel for more serious matters. And according

to CAI's President and CEO, no member has left CAI
because it doesn't offer legal services.

legislation, CAI turned to the courts. It challenged
the UPL statutes in federal district court, naming as

[1] [2] Addressing the cross-motions for summary

defendants the attorney general of North Carolina

judgment, the district court first held that CAI

and certain district attorneys. The complaint sought

had standing because it faced "a credible threat of

declaratory and injunctive relief that would prevent

prosecution" if it practiced law. *204 Capital Associated

enforcement of North Carolina's UPL laws against it. It

Indus., Inc. v. Stein (CAI), 283 F.Supp.Sd 374, 380

pleaded five claims under 42 U.S.C. § 1983 (concerning

(M.D.N.C. 2017).2 The district court then turned to

due process, free association, free speech, vagueness,

the merits and rejected all six of CAI's claims, entering

and commercial speech) and one claim under the state

summary judgment for the defendants. Id. at 383-92.

constitution.

This appeal followed.
The district court allowed the State Bar to intervene as a
defendant. It then denied CAI's motion for a preliminary
injunction and the defendants' motions to dismiss and for

WESTLA^ © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

commercial ends. *205 Id. at 442-43, 83 S.Ct. 328. And
II.

[3] [4] We review the district court's grant of summary

as the Court took time to emphasize, the law as applied
against the NAACP did not implicate "professionally
reprehensible conflicts of interest." Id. at 443,83 S.Ct.328.

judgment de novo.Dreherv. Experian Info. Sols., Inc., 856

F.3d 337, 343 (4th Cir. 2017). "FW]e apply the same legal

The Supreme Court has applied Button in two contexts.

standards as the district court, and view all facts in the

The first, involves public interest organizations like the

light most favorable to the nonmoving party." Id. (quoting

NAACP. See In re Primus, 436 U.S. 412, 98 S.Ct. 1893,

Roland v. U.S. Citizenship & Immigration Sen's., 850 F.3d

56 L.Ed.2d 417 (1978). In Primus, the Court held that
South Carolina couldn't forbid the ACLU from advising

625, 628 (4th Cir. 2017)).

people of their legal rights and informing them that the
[5] CAI framed all six of its claims as as-applied

ACLU could represent them for free. Id. at 431-32, 98

challenges, which test the constitutionality of a statute

S.Ct. 1893. The Court compared the ACLU's role to that

applied to the plaintiff based on the record. Ednc. Media

of the NAACP in Button and contrasted it with "a group

Co. at Va. Tech, Inc. v. Insley, 731 F.3d 291, 298 n.5 (4th

that exists for the primary purpose of financial gain." Id.

Cir. 2013). Thus, CAI was not required to prove that the

at 427-31, 98 S.Ct. 1893. It cast doubt on whether an

UPL statutes are invalid in all circumstances. Id.

organization operating for financial gain would receive
the same protection as organizations that promote the
common political aims of their members. Id. at 429-30,

III.

[6] We begin with CAI's claim that the UPL statutes
violate its freedom of association. CAI contends that it is
an expressive association seeking to improve employment

relationships in North Carolina and foster compliance
with the law."' By forbidding it from practicing law, CAI
argues, the UPL statutes restrict its ability to carry out
that expressive mission. We agree with the district court,

however, that the UPL statutes do not unconstitutionally
restrict CAI's associational rights.
To support its argument, CAI relies on a line of cases

beginning with NAACPv. Button, 371 U.S. 415, 83 S.Ct.
328, 9 L.Ed.2d 405 (1963). In Button, the Supreme Court
held that a Virginia law forbidding organizations from
retaining attorneys to represent third parties infringed on
the right of the NAACP and its members "to associate for
the purpose of assisting persons who seek legal redress for

infringements" of their civil and constitutional rights. Id.
at 428, 83S.Ct.328.

The Court emphasized that for the NAACP, litigation is
"not a technique of resolving private differences; it is a
means for achieving the lawful objectives of equality of
treatment." Id. at 429, 83 S.Ct. 328. To win civil rights, the

Court said, litigation may be the "sole practicable avenue"
and the "most effective form of political association." Id.
at 430-31, 83 S.Ct. 328. Thus, what was at stake was

"securpng] constitutionally guaranteed civil rights," not

437-38, 438, 98S.Ct.l893n.32.

The second context involves labor unions. See Bhd. of
R.R. Trainmen v. Va. ex re!. Va. State Bar, 377 U.S.

1, 84 S.Ct. 1113, 12 L.Ed.2d 89 (1964). The Trainmen
Court held that Virginia couldn't bar a union from
recommending lawyers to its members for workers'
compensation suits. Id. at 7-8, 84 S.Ct. 1113. The

Virginia law, the Court said, infringed on "the right of
individuals and the public to be fairly represented in
lawsuits authorized by Congress to effectuate a basic
public interest" without adequate justification. Id.
The Court has extended Trainmen twice. First, it

held that Illinois couldn't prevent a union from
employing attorneys to represent its members in workers'
compensation claims. United Mine Workers v. III. State
Bar Ass'n, 389 U.S. 217, 223-25, 88 S.Ct. 353, 19

L.Ed.2d 426 (1967), While the Court considered that law
unjustified, it emphasized that the state did possess an
"interest in high standards of legal ethics." Id. at 224-

25, 88 S.Ct. 353. Second, the Court held that Michigan
couldn't bar a union from recommending to its members
certain attorneys who had agreed to a maximum fee.
United Transp. Union v. State Bar ofMich., 401 U.S. 576,

585-86, 91 S.Ct.1076,28 L.Ed.2d 339 (1971). "At issue,"
the Court said, "is the basic right to group legal action"
and the right to "meaningful access to the courts," which
required enabling union members to "meet the costs of
legal representation." Id.

WESTLW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

said the trade association might increase its fees if it
The "common thread running through" these cases is

could practice law. CAI thus seeks to practice law for

that "collective activity undertaken to obtain meaningful

commercial ends, like a private attorney—not to associate

access to the courts is a fundamental right." United

for political or otherwise public goals. And while we

Transp. Union, 401 U.S. at 585-86, 91 S.Ct. 1076;^ee also

accept that CAI engages in some expressive activity, CAI

Lawline v. Am. Bar Ass'n, 956 F.2d 1378, 1387 (7th Cir.

proposes to practice law for commercial ends, not to

1992) (United Mine Workers "supports the proposition

express a message.

that laypersons have a right to obtain meaningful access
to the courts, and to enter into associations with lawyers

Nor does CAI propose to engage in "collective activity

to effectuate that end."). Critically, however, the cases

undertaken to obtain meaningful access to the courts."

distinguish between the commercial practice of law and

Primus, 436 U.S. at 441, 98 S.Ct. 1893 (quoting {//MW

"associating for non-commercial purposes to advocate the

Transp. Union, 401 U.S. at 585, 91 S.Ct. 1076). As

enforcement of legal and constitutional rights." In re N.H.

described in the record, CAI's members have consistently

Disabilities Rights Ctr., Inc., 130 N.H. 328, 541 A.2d 208,

had access to legal services and the courts. And CAI has

213(N.H.1988)(Souter,J.).

no intention of litigating in any forum. So, unlike the

The Supreme Court emphasized this distinction in Ohralik

access to justice or vindicate its members' constitutional

v. Ohio State Bar Ass'n, the same day it decided Primus.

or statutory rights. Cf. Trainmen, 377 U.S. at 7-8,84 S.Ct.

organizations in the Button cases, CAI would not facilitate

436 U.S. 447, 98 S.Ct. 1925, 56 L.Ed.2d 444 (1978). In

1113. CAI's proposed practice might reduce some of its

Ohralik, the Court rejected a challenge to an Ohio law

members' legal biUs. But nothing in the record shows that

forbidding in-person solicitation of clients. Solicitation

CAI's inability to practice law means that its members

of clients for commercial purposes, the Court held, did

can't "meet the costs of legal representation" or obtain

not implicate "political expression or an exercise of

"meaningful access to the courts." United Transp. Union,

associational freedom" or "mutual assistance in asserting

401 U.S. at 585-86, 91 S.Ct.1076.

legal rights." Id. at 458, 98 S.Ct. 1925.
The Supreme Court has, moreover, extended

*206 [7] As applied to CAI, North Carolina's UPL laws

associational rights only when the proposed practice of

are closer to the statute in Ohralik than the statutes in the

law wouldn't raise ethical concerns. See Button, 371 U.S.

Button cases. While this case is admittedly close, several

at 443, 83 S.Ct. 328; Trainmen, 377 U.S. at 6, 84 S.Ct.

considerations distinguish CAI's proposed practice from

1113; Primus, 436 U.S. at 422, 429-30, 98 S.Ct. 1893.

the Button line of cases. First, what CAI seeks to

CAI's proposed practice, in contrast, does raise ethical

accomplish would be for commercial ends and would

concenis. Specifically, its members would pay legal fees

address only private concerns. Second, it would not

for representation by attorneys supervised by officers and

facilitate access to the courts. And third, it would pose

directors who are not attorneys. That structure (even

ethical concerns not present in the Button cases.

if housed in a nonprofit entity) could compromise the
independence and professional judgment of the lawyers

When organizations like the NAACP and the ACLU

involved, and the corporation's interests could trump

solicit clients and retain lawyers to represent them, they

loyalty to clients.

express their commitment to expanding and guarding
civil rights. See Button, 371 U.S. at 430-31, 83 S.Ct.

In sum, several features of CAI's proposed practice

328; Primus, 436 U.S. at 428-30, 98 S.Ct. 1893. CAI,

distinguish it from the organizations in the Button cases.

in contrast, wants to help its members "resolv[e] private

As a result, like the solicitation statute m Ohralik, North

differences" by draftmg legal documents and advising

Carolina's UPL statutes "only marginally affect[ ] ...

employers on labor and employment issues. Button, 371

First Amendment concerns." 436 U.S. at 459, 98 S.Ct.

U.S. at 429, 83 S.Ct. 328. Its goal, as set forth in its 2X

1925. Because they do not "substantially impair[ ] the

plan, is to increase revenues and recruit new members

associational rights" of CAI, we need not examine

who will pay dues and additional legal fees. CAI would

whether the state's interests suffice to justify them. United

charge by the hour for some services. While other services

Mine Workers, 389 U.S. at 225, 88 S.Ct. 353; see also

would be included in its membership fees, CAI's chairman

Lawline, 956 F.2d at 1387 (declinmg to apply heightened

WEST-LAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

scrutiny because *207 there was no deprivation of

a content-based and identity-based regulation of speech

associational rights). We hold that the UPL statutes do

that must survive strict scrutiny. As explained below, we

not violate CAI's associational rights.

agree with the state that the law passes—and only needs
to pass—intermediate scrutiny.

IV.
A.

Next, CAI argues that the UPL statutes unlawfully burden
its freedom of speech. The district court rejected this claim

[10] North Carolina's ban on the practice of law

based on the so-called "professional speech doctrine."

by corporations fits within NIFLA's exception for

CAI, 283 F.Supp.3d at 385-86. When the district court

professional regulations that incidentally affect speech.

ruled, this circuit and others applied lesser standards of

138 S.Ct. at 2372-73. The ban is part of a generally

scrutiny to professionals' speech to clients. See Pickup 1'.

applicable licensing regime that restricts the practice of

Brown, 740 F.3d 1208, 1228-31 (9th Cir. 2014); King v.

law to bar members and entities owned by bar members.

Governor, 767 F.3d 216, 224-25, 228-29 (3d Cir. 2014);

Cf. Goldfarb v. Va. State Bar, 421 U.S. 773, 792, 95 S.Ct.

Moore-Kmg v. County of Chesterfield, 708 F.3d 560, 569

2004,44 L.Ed.2d 572 (1975) ("We recognize that the States

(4th Cir. 2013). But after the briefing in this appeal, the

have ... broad power to establish standards for licensing

Supreme Court disapproved of this doctrine as defined in

practitioners and regulating the practice of professions.").

Pickup, King, and Moore-King. See Nat'l Inst. of Family

In this case, any impact the UPL statutes have on speech

& Life Advocates v. Becerra (NIFLA), — U.S. —, 138

is incidental to the overarching purpose of regulating who

S.Ct. 2361,2371-72,2375,201 L.Ed.2d 835 (2018).

may practice law. Cf. Lawline, 956 F.2d at 1386 (holding
that an ethical rule prohibiting lawyers from assisting in

In NIFLA, the Court addressed a California law requiring

the unauthorized practice of law has only an incidental

certain clinics that primarily serve pregnant women to

impact on speech).

post notices about what services they didn't offer and
about free state services. Id. at 2368-70. Although the law

Many laws that regulate the conduct of a profession

applied in a professional context, the Court approached

or business place incidental burdens on speech, yet the

the case as it would any other involving compelled speech.

Supreme Court *208 has treated them differently than

Id. at 2374-75. It held that the law was content-based.

restrictions on speech. For example, while obtaining

Id. at 2371. And because it held that the law could not

informed consent for abortion procedures implicates a

survive intermediate scrutiny, the Court declined to decide

doctor's speech, the state may require it "as part of the

whether strict scrutiny should apply. Id. at 2375-77.

practice of medicine, subject to reasonable licensing and
regulation." Planned Parenthood of' Se. Pa. v. Casey, 505

[8] [9] The Court did, however, recognize two situations

U.S. 833, 884, 112 S.Ct. 2791, 120 L.Ed.2d 674 (1992)

in which states have broader authority to regulate the

(opinion of O'Connor, Kennedy, & Sputer, JJ.). Bans

speech of professionals than that of nonprofessionals.

on discrimination, price regulations, and laws against

First, there is "more deferential review" for requirements

anticompetitive activities all mplicate speech—some

that professionals "disclose factual, noncontroversial

may implicate speech even more directly than licensing

information" in their commercial speech. Id. at 2372.

requirements. But the Supreme Court has analyzed them

Second, "[s]tates may regulate professional conduct, even

all as regulations of conduct. See Expressions Hair Design

though that conduct incidentally involves speech." Id. As

v. Schneiderman, — U.S. ——, 137 S.Ct. 1144, 1150-

examples of this latter category, the Court cited cases

51, 197 L.Ed.2d 442 (2017); Rumsfeld v. Forum for Acad.

about malpractice, anticompetitive agreements, client

& Inst. Rights, Inc., 547 U.S. 47, 62, 126 S.Ct. 1297, 164

solicitation, and informed consent. Id. at 2372-73.

L.Ed.2d 156 (2006); Giboney v. Empire Storage & Ice Co.,
336 U.S. 490,502,69 S.Ct. 684, 93 L.Ed. 834 (1949).

On appeal. North Carolina describes the ban on corporate
law practice as a regulation of professional conduct that

As CAI recognizes, the practice of law has communicative

incidentally burdens speech, which only needs to survive

and non-communicative aspects. The UPL statutes don't

intermediate scrutiny. In contrast, CAI describes it as

target the communicative aspects of practicing law, such

WE&TLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

as the advice lawyers may give to clients. Instead, they

confidence that the standard for conduct-regulating laws

focus more broadly on the question of who may conduct

can't be *209 greater than intermediate scrutiny.

themselves as a lawyer. Licensing laws inevitably have
some effect on the speech of those who are not (or

cannot be) licensed. But that effect is merely incidental

[12] In sum, we hold that intermediate scrutiny is the
appropriate standard for reviewing conduct regulations

to the primary objective of regulating the conduct of the

that incidentally impact speech. We think this a sensible

profession.

result, as it fits neatly with the broad leeway that states
have to regulate professions. See Ohralik, 436 U.S. at

460, 98 S.Ct. 1925; Goldfarb, 421 U.S. at 792, 95 S.Ct.
B.

2004. For laws with only an incidental impact on speech,
intermediate scrutiny strikes the appropriate balance

Having determined that the UPL statutes regulate

between the states' police powers and individual rights.

conduct, we turn to the appropriate standard of review.

CAI urges us to apply strict scrutiny, contending that the
UPL statutes restrict speech based on the content and

c.

on the speaker. We think the correct reading of Supreme
Court precedent, however, is that intermediate scrutiny

[13] [14] We turn then to consider whether North

should apply to regulations of conduct that incidentally

Carolina's ban on the practice of law survives this

impact speech.

standard of review. To survive intermediate scrutiny, the
defendant must show "a substantial state interest" and

When the Supreme Court has reviewed restrictions on

a solution that is "sufficiently drawn" to protect that

conduct that incidentally burden speech, it has not applied

interest. NIFLA, 138 S.Ct. at 2375. North Carolina's

strict scrutiny. It has not, for example, demanded that laws

interest in regulating the legal profession to protect clients

against employment discrimination or anticompetitive

is at least substantial. In fact, the Supreme Court has

agreements survive strict scrutiny. See Rumsfeld, 547 U.S.

repeatedly described that interest in even stronger terms.

at 62, 126 S.Ct. 1297; Giboney, 336 U.S. at 502, 69
S.Ct. 684. Price regulations too are not subject to strict

See Ohralik, 436 U.S. at 460, 98 S.Ct. 1925; Goldfarb, 421
U.S. at 792, 95 S.Ct. 2004.

scrutiny (though the standard for laws that only restrict
communications about prices is unsettled). Expressions

Barring corporations from practicing law is sufficiently

Hair Design, 137 S.Ct. at 1150-51. Even laws that

drawn to protect that interest. Professional integrity could

implicate speech quite directly, such as laws requiring

suffer if the state allows lawyers to practice on behalf of

doctors—through spoken words—to obtain informed

organizations owned and run by nonlawyers and to collect

consent from patients before an abortion have not been

legal fees from clients. Nonlawyers would likely supervise

subjected to strict scrutiny. Casey, 505 U.S. at 884, 112

lawyers representing third-party clients at CAI, which

S.Ct. 2791 (opinion of O'Connor, Kennedy, & Souter,

could compromise professional judgment and generate

JJ.).

conflicts between client interests and the corporation's
interests.

[11] Although the Court's cases have not been crystal
clear about the appropriate standard of review, we do
know that the state actors involved were not required to
demonstrate a compelling interest and narrow tailoring.

And NIFLA itself provides ample support for the view

The state has addressed these problems by proscribing
law practice by organizations that pose the most danger,

while exempting organizations that pose little danger.
Professional corporations, for example, must be owned

that strict scrutiny shouldn't apply to the UPL statutes.

exclusively by lawyers. N.C. Gen. Stat. § 55B-4(2). And

As noted, the NIFLA Court chose not to decide whether

public interest law firms "must have a governing structure

strict or intermediate scrutiny applied to the law at issue.

that does not permit" anyone except an "attorney duly

138 S.Ct. at 2375-77. But the Court did highlight laws

licensed ... to control the manner or course of the legal

regulating "professional conduct" as an area in which it

services rendered." Id. § 84-5.1 . Plus, the restrictions on the

"has afforded less protection for professional speech." Id.

fees such firms may receive makes it impossible for them

at 2372 (emphasis added). Thus, we can sa^ with some

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

break even (much less turn a profit) on legal work. Rev.

ordinary intelligence fair notice of what is prohibited, or is

Proc. 92-59, 1992-2 C.B.

so standardless that it authorizes or encourages seriously
discriminatory enforcement." United States v. Williams,

[15] Another state legislature might balance the interests

553 U.S. 285, 304,128 S.Ct. 1830,170 L.Ed.2d 650 (2008).

differently. But intermediate scrutiny requires only a

But "perfect clarity and precise guidance have never

"reasonable *210 fit between the challenged regulation"

been required even of regulations that restrict expressive

and the state's interest—not the least restrictive means.

activity." Wardv. Rock Against Racism, 491 U.S. 781,794,

United States v. Chester, 628 P.3d 673, 683 (4th Cir. 2010)

109 S.Ct. 2746, 105 L.Ed.2d 661(1989).

(internal quotation marks omitted); see Bd. ofTrs. of State
Univ. of N. Y. v. Fox, 492 U.S. 469, 480-81, 109 S.Ct.

[19] [20] To determine if a statute is vague, we examine

3028,106L.Ed.2d388 (1989). Because North Carolina has

both the statute itself and any limiting constructions from

established a reasonable fit between its UPL statutes and a

state courts or agencies. Martin v. Lloyd, 700 F.3d 132,

substantial government interest, the UPL statutes survive

136 (4th Cir. 2012). State law defines the term "practice

intermediate scrutiny.

law" as "performing any legal service." N.C. Gen. Stat.

§ 84-2.1 (a). The statutory definition provides a lengthy
but unexhaustive list of what does and doesn't count
V.

[16] CAI also argues that the UPL statutes deny it due
process because they lack a rational basis. CAI doesn't

as a legal service. Id. §§ 84-2. l(b), 84-2.2. The statute

prohibiting the unauthorized practice of law elaborates
on the definition further. Id. § 84-4. And North Carolina
courts have expounded on this definition at length.5

contend that its due process claim concerns fundamental

rights, so the UPL statutes are only subject to rational

CAI's vagueness challenge fails. The statutes and state

basis review. Hawkins v. Freeman, 195 F.3d 732, 739 (4th

case law collectively provide *211 an extensive definition

Cir. 1999) (en banc). To pass muster under rational basis

of what it means to practice law. Between them, a person

review, legislation "need only be rationally related to a

of ordinary intelligence would have fair notice of what

legitimate government interest." Star Sci. Inc. v. Beaks,

the UPL statutes prohibit. Indeed, CAI itself understood

278 F.3d 339, 348 (4th Cir. 2002).

what it means to practice law well enough to avoid giving
its members legal advice.

[17] The state relies on the same justifications it provided
in response to the First Amendment claims. As our

[21] CAI points out that State Bar officials couldn't

precedent counsels, "there is a rational basis to restrict

present a clear answer to every hypothetical question

corporate ... ownership of professional businesses" to

asked in their depositions. J.A. 670-76, 791-92. But fair

protect consumers. Brown v. Hovatter, 561 F.3d 357, 368

notice doesn't require certainty about every hypothetical

(4th Cir. 2009) (citing N.D. State Bd. of Pharmacy v.

situation. Ward, 491 U.S. at 794, 109 S.Ct. 2746. We

Snyder's Drug Stores, Inc., 414 U.S.156,166-67, 94 S.Ct.

hold, therefore, that the UPL statutes are not void for

407, 38 L.Ed.2d 379 (1973)). Accordingly, we agree with

vagueness.

the district court that the state's justifications suffice.
CAI's remaining arguments—such as the availability of
less restrictive means—are inapposite for rational basis

VII.

review. We hold that the UPL statutes do not deny CAI
due process.

[22] [23] CAI next contends that the UPL statutes
violate the state constitution's Monopoly Clause, which
provides that "[pjerpetuities and monopolies ... shall not
VI.

be allowed." N.C. Const. art. I, § 34. To construe state
law, we look to decisions of the state's highest court or,

[18] CAI also contends that the UPL statutes are

if needed, decisions of the state's intermediate appellate

unconstitutionally vague because they fail to provide fair

court. Assicurazioni Generali, S.p.A. v. Neil, 160 P.3d 997,

notice of what it means to practice law. A statute is

1002 (4th Cir. 1998).

unconstitutionally vague if it "fails to provide a person of

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

The Supreme Court of North Carolina has interpreted
this clause to allow "reasonable regulations" of commerce

with a substantial relationship to public health, safety,
or welfare. In re Certificate of Need for Aston Park

Hosp., Inc., 282 N.C. 542, 193 S.E.2d 729, 735 (1973);
see also Am. Motors Sales Corp. v. Peters, 311 N.C.

311, 317 S.E.2d 351, 358-59 (1984). That court has
long been deferential toward professional regulations,

regularly upholding professional licensing requirements.

245 N.C. 516, 96 S.E.2d 851, 859 (1957) (invalidating
licensing regime for tile layers for sunilar reasons). In

contrast, it is well established that the practice of law
affects the public interest and that the unregulated practice
of law can pose a danger. See Seawell, 184 S.E. at 544,209
N.C. 624; *212 In re Applicants for License, 143 N.C. 1,

55 S.E. 635, 636 (1906); cf. Ohralik, 436 U.S. at 459-60,
98 S.Ct. 1925. Based on the applicable state case law, this
court must conclude that the UPL statutes do not violate
the Monopoly Clause.

The state high court has twice upheld the ban on corporate
law practice. In Seawell, the Supreme Court of North

VIII.

Carolma affirmed an injunction against a corporation

for the unauthorized practice of law, holding that "[t]he
statute in question offends neither the State nor Federal
Constitution." 184 S.E. at 544, 209 N.C. 624. And in
Gardner v. North Carolina State Bar, that court held that
an insurance company could not employ an attorney to

represent its insureds, finding that "[t]here is no merit
to th[e] argument" that the ban on corporate practice
"violates Article I of the [state constitution] and the

[24] Last, CAI argues that it has a free speech right to
advertise the legal services it wants to offer. But this
commercial speech claim is not an independent basis

for granting relief, and the state may forbid CAI from
advertising legal services barred by law. Cent. Hudson Gas
&Elec. Corp. v. Pub. Serv. Comm'n of N. Y., 447 U.S. 557,

563-64, 100 S.Ct.2343, 65 L.Ed.2d 341 (1980).

Fourteenth Amendment." 316 N.C. 285, 341 S.E.2d 517,

523 (1986). Although it is unclear whether Seawell and
Gardner addressed Monopoly Clause arguments, they

IX.

illustrate the leeway North Carolina courts give the
legislature to regulate the legal profession.

The district court correctly granted the defendants'
motion for summary judgment. Its judgment is therefore

State v. Ballance, 229 N.C. 764, 51 S.E.2d 731 (1949),
a case relied on by CAI, is not to the contrary. That

AFFIRMED.

case concerned a licensing requirement for professional

photography, which the court described as "a private
business unaffected in a legal sense with any public
interest." Id. at 735. The court saw no serious dangers

All Citations

922 F. 3d 198

from unlicensed photography. Id.; see also Roller v. Alien,

Footnotes
1 North Carolina is not alone in doing so. Almost all other states have similar laws on the books. J.A. 754. One state
allows unincorporated nonprofit "association[s]" to practice law. 42 Pa. Cons. Stat. § 2524(b)(1). And CAI points to trade
associations practicing law in a few other states. J.A. 181, 197, 213. But at least one of those states bans corporations
from practicing law. See 705 III. Comp. Stat. 220/1.
2 While the parties' briefs don't address standing, this court must assure itself of its jurisdiction. See Stee/ Co. v. Citizens
for a Better Env't, 523 U.S. 83, 94, 118 S.Ct. 1003, 140 L.Ed.2d 210 (1998). We agree with the district court that CAI
faces a credible threat of prosecution. See Medlmmune, Inc. v. Genentech, Inc., 549 U.S. 118, 128-29,127 S.Ct.764,
166 l-.Ed.2d 604 (2007); A/.C. Rightto Life, Inc. v. Bartlett, 168 F.3d 705, 710-11 (4th Cir. 1999). That injury is traceable
to state prosecutors, and enjoining enforcement of the statutes would provide CAI relief. CAI, 283 F.Supp.Sd at 380-81.

3 The Supreme Court has recognized the right to associate "for the purpose of engaging in those activities protected by
the First Amendment," which it termed "expressive association." Roberts v. U.S. Jaycees, 468 U.S. 609, 618, 104 S.Ct.

3244, 82 l-.Ed.2d 462 (1984). The defendants contend that CAI forfeited review of whether the UPL statutes infringed on
its rights as an expressive association. Appellees' Br. at 34-36. CAI did largely omit the term "expressive association"

WESTLAW © 2019 Thomson Reuters. No claim to original U.S. Government Works.

12

Capital Associated Industries, Incorporated v. Stein, 922 F.3d 198 (2019)

below. But its arguments fall within expressive association jurisprudence and the district court ruled on the issue, so it is
preserved for review. See Volvo Constr. Equip. N. Am., Inc. v. CLM Equip. Co., 386 F.3d 581, 604 (4th dr. 2004).
4 CAI describes the UPL statutes as content-based and identity-based restrictions on speech. Because the statutes
regulate conduct, we need not engage with these descriptors. See R.A.V. v. City of St. Paul, 505 U.S. 377, 389-90, 112
S.Ct. 2538, 120 L.Ed.2d 305 (1992). Content-based restrictions ordinarily receive strict scrutiny. See Reed v. Town of
Gilbert, — U.S. —, 135 S.Ct.2218,2226-27,192 L.Ed.2d 236 (2015). But in many of the cases concerning conduct,
a law had an incidental impact on speech with particular content—such as anticompetitive agreements, discriminatory
statements, prices, or informed consent—yet the Supreme Court declined to apply strict scrutiny. The NIFLA Court
mentioned such cases to illustrate an exception without any indication that they should receive strict scrutiny, see 138
S.Ct. at 2372-73, despite the sweeping language about content-based restrictions in some recent cases, see Reed,135
S.Ct. at 2226-27. Finally, the Court has treated identity-based distinctions as part of the inquiry into content-neutrality, not
as a separate reason for finding a statute unconstitutional. See Reed, 135 S.Ct. at 2230-31; Turner Broadcasting Sys.,
Inc. v. FCC, 512 U.S. 622,658,114 S.Ct. 2445, 129 L.Ed.2d 497 (1994). Thus, labeling the UPL statutes an identitybased restriction doesn't change our analysis.
5 See State v. Pledger, 257 N.C. 634, 127 S.E.2d 337, 338-39 (1962); Seawe// v. Carolina Motor Club, 209 N.C. 624,
184 S.E. 540, 544 (1936); State v. Williams, 186 N.C.App. 233, 650 S.E.2d 607, 611 (2007); Lexis-Nexis v. Travishan
Corp., 155 N.C.App. 205, 573 S.E.2d 547, 549 (2002); Duke Power Co. v. Daniels, 86 N.C.App. 469, 358 S.E.2d 87, 89
(N.C. Ct. App. 1987); N.C. State Bar v. Lienguard, Inc., No. 11 CVS 7288, 2014 WL 1365418, at *10-12 (N.C. Super.
Ct. Apr. 4, 2014).
6 See State v. Warren, 252 N.C. 690,114 S.E.2d 660, 666 (1960) (real estate brokers); Roach v. City of Durham, 204 N.C.

587,169 S.E.149,151 (1933) (plumbers); State v. Lockey, 198 N.C. 551, 152 S.E. 693, 696 (1930) (barbers); State v.
S/'ter, 169 N.C. 314, 84 S.E. 1015, 1016 (1915) (doctors); St George v. Hardie, 147 N.C. 88, 60 S.E. 920, 923 (1908)
(riverboat pilots); State v. Hicks, 143 N.C. 689, 57 S.E. 441, 442-43 (1907) (dentists); State v. Call, 121 N.C. 643, 28

S.E. 517, 517 (1897) (doctors).

End of Document © 2019 Thomson Reuters. No claim to original U.S. Government Works.

WESTtAW © 2019 Thomson Reuters. No claim to original U.S. Government Works. 13

B

374

283 FEDERAL SUPPLEMENT, 3d SERIES
(7) statutes did not violate First Amend-

CAPITAL ASSOCIATED INDUSTRIES,
INC., Plaintiff,
V.

Josh STEIN, in his official capacity as
Attorney General of the State of North
Carolina, et al., Defendants.

l:15cv83

ment's protection of commercial
speech, as applied to association.
Judgment accordingly.

1. Declaratory Judgment ©^300
Employers' association wishing to provide legal services to its members faced

credible threat of prosecution under North

United States District Court,

Carolina unauthorized practice of law stat-

M.D. North Carolina.

utes, and thus had standing to bring action
for declaratory and injunctive relief

Signed 09/19/2017

against North Carolina prosecutors alleg-

Background: Employers' association

ing that, as applied to association, enforce-

wishing to provide legal services to its

ment of statutes violated the United States
Constitution and North Carolina Constitution; prosecutors and North Carolina State

members brought action for declaratory

and injunctive relief against North Carolina prosecutors, alleging that, as applied

Bar had vigorously contended that associa-

to association, enforcement of North Gar-

tion lacked right to provide legal services

olina unauthorized practice of law statutes

to its members, and prosecutors had not

violated the United States Constitution
and the North Carolina Constitution.
North Carolina State Bar intervened as

cuting association. U.S. Const. art. 3, § 2;

defendants, and parties moved for summary judgment.

Holdings: The District Court, Loretta C.
Biggs, J., held that:
(1) association had standing to bring action;

stated that they would refrain from proseN.C. Gen. Stat. Ann. §§ 84-4, 84-6.
2. Declaratory Judgment ®^62, 299.1

The justiciability problem that arises
when the party seeking declaratory relief
is himself preventing the complained-of-

injury from occurring can be described in
terms of standing or in terms of ripeness;

(2) statutes did not violate Fourteenth

as applied to that factual scenario, the

Amendment substantive due process,

imminence requirement of standing doc-

as applied to association;

trine and the hardship prong of ripeness

(3) statutes did not violate First Amendment right to freedom of speech, as
applied to association;

doctrine require courts to conduct similar
inquiries. U.S. Const. art. 3, § 2.
3. Federal Civil Procedure ©='103.2

(4) statutes did not violate First Amend-

Standing doctrine requires a cogniza-

ment right of association, as applied to

ble injury that will occur in the future to

association;

be imminent. U.S. Const. art. 3, § 2.

(6) statutes were not void for vagueness
under Fourteenth Amendment, as ap-

plied to association;
(6) statutes did not violate North Carolina

4. Federal Courts ®=>2120
Ripeness doctrine requires courts to

ask whether a plaintiff will suffer some
hardship if the court declines to consider

Constitution's Monopoly Clause, as ap-

an issue at a certain time. U.S. Const. art.

plied to association; and

3,§ 2.

CAPITAL ASSOCIATED INDUSTRIES, JNC. v. STEIN
Cite as 283 F.Supp.Sd 374 (M.D.N.C. 2017)

5. Federal Civil Procedure <S^103.2

10. Attorney and Client 0^12(2)

Civil Rights 0^1457(6)

Federal Courts 0^2121
When evaluating the cognizability of a
future injury, both standing doctrine and
ripeness doctrine ask courts to determine

whether that prospective harm will affect
the plaintiff soon enough to justify the
invocation of federal jurisdiction. U.S.
Const. art. 3, § 2.

6. Federal Civil Procedure ®^103.2
Federal Courts <S=°2101

375

Constitutional Law ©^ 1440
Preliminary injunction order did not
establish that employers' association was

not entitled to First Amendment right of
association protection in association's claim
that, as applied to association, enforcement

of North Carolina unauthorized practice of
law statutes to prohibit association from
providing legal services to its members

Standing doctrine is one element of

would violate its right of association; al-

the case-or-controversy requirement of Ar-

though order concluded that "paying more

tide III of the Constitution, and a plaintiff
that invokes federal jurisdiction must ac-

place association and members in same

cordingly establish standing to sue. U.S.

category as margmalized individuals actu-

than desired" for outside counsel did not

Const. art. 3, § 2.

ally denied channels to vindicate rights

7. Federal Civil Procedure '®=:>103.2, 103.3

protected by the Constitution or federal

A plaintiff has standing upon demon-

law, order also stated that it did not fore-

stratmg an injury that is concrete, particu-

close the possibility the activities associa-

larized, and actual or imminent; faMy

tion and members wished to undertake

traceable to the challenged action; and re-

could be entitled to Fu-st Amendment pro-

dressable by a favorable ruling. U.S.

tection. U.S. Const. Amend. 1; Fed. R.

Const. art. 3, § 2.

Civ. P. 56; N.C. Gen. Stat. Ann. §§ 84-4,

8. Constitutional Law ®:»699

84-5.

A plaintiff has standing to bring a preenforcement challenge to a statute when

the plaintiff faces a credible threat of prosecution under that law; further, when the

State has not disclaimed any intention of
enforcing the challenged statute, a plaintiff
need not actually violate that statute, or be

proactively threatened with prosecution
prior to violation, m order to have standing
to challenge its constitutionality. U.S.

11. Constitutional Law '©^1440
The right of association protected under the First Amendment extends beyond
marginalized mdividuals who are denied
access to the courts. U.S. Const. Amend.
1.

12. Attorney and Client ®=12(2)
Constitutional Law <s^4265, 4273(2)
As applied to employers' association

Const. art. 3, § 2.

•wishing to provide legal services to its

9. Attorney and Client ®=>12(26)

members, North Carolina unauthorized

District and Prosecuting Attorneys

practice of law statutes were reasonably

North Carolina law requires the

related to promotion of legitimate state
interests of avoiding conflicts of interest

State's district attorneys to indict individuals or entities who allegedly violate the

independence, and thus statutes did not

unauthorized practice of law statutes once

violate association's Fourteenth Amend-

a district attorney receives notice of the

ment right to substantive due process.

alleged violation. N.C. Gen. Stat. Ann.

U.S. Const. Amend. 14, § 1; N.C. Gen.

§§ 84-4, 84-5.

Stat. Ann. §§ 84-4, 84-5.

®=8(3)

and loyalty and impairment of attorney

376

283 FEDERAL SUPPLEMENT, 3d SERIES

13. Constitutional Law 0^4273(2)

16. Constitutional Law '©^3895

Rational basis review applied to claim
that North Carolina unauthorized practice
of law statutes violated Fourteenth

tive due process standard does not require

Amendment right to substantive due process of employers' association which

wished to provide legals services to its
members; alleged right of a trade associa-

The deferential rational basis substan-

mathematical precision in the fit between
justification and means; rather, it is
enough that there is an evil at hand for
correction, and that it might be thought
that the particular legislative measure was

tion to provide legal services was not an

a rational way to correct it. U.S. Const.

enumerated right and had not been identi-

Amend. 14, § 1.

fied as a fundamental right, and associa-

17. Attorney and Client <s^l2(2)

tion did not ask court to hold the alleged
right to be a fundamental right. U.S.
Const. Amend. 14, § 1; N.C. Gen. Stat.
Ann. §§ 84-4, 84-5.
14. Constitutional Law '£='3894, 3895,

3901
When a plaintiff alleges that a state
legislative act violates a right entitled to
substantive due process protection, a court

must first determine whether the right
that was allegedly violated is one of those
fundamental rights and liberties which are,
objectively, deeply rooted in this Nation's
history and tradition and implicit in the
concept of ordered liberty, such that nei-

ther liberty nor justice would exist if they
were sacrificed; if the court determines

that the state action implicates one of
those fundamental rights or liberties, the
court must apply strict scrutiny to the
challenged action, but if the state action
implicates a right that is neither funda-

Constitutional Law ®»2042
As applied to employers' association

wishing to provide legal services to its
members, North Carolina unauthorized
practice of law statutes operated as profes-

sional regulation, and thus did not violate
association's First Amendment right to
freedom of speech, where association, in

providing legal services to individual members, would have to exercise judgment on

behalf of members in light of their individual needs and circumstances, and associa-

tion did not plan to engage in public discussion or commentary. U.S. Const.

Amend. 1; N.C. Gen. Stat. Ann. §§ 84-4,
84-5.

18. Attorney and Client ®^12(2)
Constitutional Law <5^31440
Employers' association's provision of
legal services to its members would not
further the collective exercise of any pro-

state action is subject to rational basis

tected First Amendment activity, and thus,
as applied to association, North Carolina
unauthorized practice of law statutes did

review, which is quite deferential. U.S.

not violate association's First Amendment

Const. Amend. 14, § 1.

right of association, where proposed legal

mental nor enumerated, the challenged

15. Constitutional Law ©='3877

services did not include any assistance

A challenged state action will survive

with litigation or vindication of statutory
rights, would not further right to free

rational basis review under the Due Pro-

speech pertaming to political expression,

cess Clause of the Fourteenth Amendment

and would not further right to petition

if it is rationally related to legitimate gov-

government for redress before a court or

ernment interests. U.S. Const. Amend.

agency. U.S. Const. Amend. 1; N.C. Gen.

14, § 1.

Stat. Ann. §§ 84-4, 84-5.

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.3d 374 (M.D.N.C. 2B17)

19. Attorney and Client <S^12(2)

377

fied to practice law and did not create a

Constitutional Law <®^4265, 4273(2)

monopoly. N.C. Const. art. 1, § 34; N.C.

Employers association wishing to pro-

Gen. Stat. Ann. §§ 84-4, 84-5.

vide legal services to its members had fair
notice of and understood North CaroUna
unauthorized practice of law statutes' proMbition of "legal advice," and thus, as applied to association, statutes were not void

24. Federal Courts ©='3008(2)
A federal court hearing a state-law

claim is obligated to apply the law of the
state as interpreted by that state's highest

for vagueness under the Due Process

court.

Clause of the Fourteenth Amendment,

25. Attorney and Client ®^>12(2)

where association's president showed his
understanding of the term in a communica-

tion with the North Carolina State Bar
and in a deposition, and association's com-

plaint in its action challenging statutes also
demonstrated an understanding of the
term. U.S. Const. Amend. 14, § 1; N.C.
Gen. Stat Ann. §§ 84-4, 84-5.
20. Constitutional Law '®=>3905

Constitutional Law <®=>2042, 2049
Employers' association had no First

Amendment right to advertise legal services it -wished to provide its members, and
thus, as applied to association, North Car-

olina unauthorized practice of law statutes
did not violate First Amendment's protec-

tion of commercial speech by prohibiting
such advertisement; association did not

A claim that a statute is void-for-

have constitutional right to provide legal

vagueness arises under the Due Process

services, and unauthorized practice of law

Clause. U.S. Const. Amend. 14, § 1.

statutes made such provision unlawful.

21. Constitutional Law 0^3905
A statute will violate due process on
vagueness grounds when it fails to provide
a person of ordinary intelligence fair notice

of what is prohibited, or is so standardless
that it authorizes or encourages seriously
discriminatory enforcement U.S. Const.
Amend. 14, § 1.

U.S. Const. Amend. 1; N.C. Gen. Stat.

Ann. §§ 84-4, 84-5.

26. Constitutional Law ®=1540
First Amendment protection of commercial speech can only apply when the
underlying activity is lawful. U.S. Const.
Amend. 1.

22. Constitutional Law ®=>3905
The Fourteenth Amendment Due Process Clause's vagueness doctrine does not
require perfect clarity and precise guidance, rather it requires only fair notice of
prohibited conduct. U.S. Const. Amend.
14, § 1.

23. Antitrust and Trade Regulation
<^670
As applied to employers' association

wishing to provide legal services to its
members, North Carolina unauthorized

practice of law statutes did not violate
North Carolina Constitution's Monopoly
Clause; the statutes regulated persons and

entities North Carolina judged to be quali-

Reid L. PhUUps, Charles E. Cable, Jeninfer K. Van Zant, Kimberly M. Marston,
Craig D. Schauer, Brooks Pierce IVtcLendon Humphrey & Leonard, Greensboro,

NO, for Plaintiff.
David J. Adinolfi, II, N. C. Department

Of Justice, Raleigh, NC, for Defendants.

MEMORANDUM OPINION
AND ORDER
Loretta C. Biggs, District Judge.
Plaintiff, Capital Associated Industries
("CAI"), initiated this action for declarato-

378

283 FEDERAL SUPPLEMENT, 3d SERIES

ry and injunctive relief, alleging that the

wishes to offer its members other legal

enforcement of Sections 84-4 and 85-6 of

services that would include drafting em-

the North Carolina General Statutes

ployment, separation, and non-compete

("UPL Statutes"), which govern the unau-

agreements, reviewing employment poli-

thorized practice of law, violate the United
States Constitution and the North Carolina Constitution, as applied to CAI.
(ECF No. 1 IN 1, 100.) Before the Court

cies and handbooks, and representation "in

are three motions for summary judgment

charges before the Equal Employment Opportunity Commission." (Id,. H 44.) The le-

gal services that CAI wishes to offer would
not include providing legal assistance with

brought pursuant to Rule 56 of the Federal Rules of Civil Procedure by (1) Defen-

matters related to litigation or "extremely

dants Josh Stein,1 Nancy Lorrin Freeman,

ing, for example, "[t]ax matters that relate

and J. Douglas Henderson (collectively

to workplace and employee needs." (ECF

"State Prosecutors"), (ECF No. 100); (2)
CAI, (ECF No. 103); and (3) IntervenorDefendant, the North Carolina State Bar
(the "State Bar"), (ECF No. 112). For the
reasons stated below, the Court (1) denies

No. 106-1 at 64-67.)

State Prosecutors' motion, (2) denies CAI's

motion, (3) and grants the State Bar's
motion.

I. BACKGROUND
In its Complaint, GAI describes itself as
a tax-exempt, "non-profit employers' asso-

ciation" comprised of approximately 1,080
employers throughout North Carolina that

specialized areas of workplace law" includ-

In April of 2013, CAI requested from
the State Bar an opinion as to whether
CAI's proposed plan to provide legal advice and services to its members would
constitute the unauthorized practice of law.

(ECF Nos. 42 HH 7-9; 42-1.) On May 28,
2013, the State Bar issued a proposed ethics decision, which notified CAI that its
plan would amount to the unauthorized
practice of law because of CAI's status as
a corporation not authorized to practice
law. (See ECF No. 42-2.)

"assodate[ ] ... to promote industrial de-

On January 23, 2015, CAI filed this law-

velopment and progress." (E OF No. 1

suit, seeking declaratory relief and re-

11U 6, 17.) CAI members pay annual mem-

questing that State Prosecutors be en-

bership dues to CAI to receive "efficient,

joined from enforcing the UPL Statutes
against CAL (ECF No. 1.) CAI alleged
that the enforcement of the UPL Statutes,

low-cost human resources-related information, advice, data, education, legislative advocacy, and other benefits and services

as applied to CAI, would violate (1) its

pertaining to each member's human re-

right to substantive due process under the

sources, compliance, and day-to-day man-

services to its members through licensed

Fourteenth Amendment to the Constitution, (id. HH 45-53); (2) its right of association under the First Amendment, (id.
n 54-63); (3) its right to free speech under the First Amendment on the grounds

North Carolina attorneys" that it employs,

that the UPL Statutes operate as content-

as part of the dues its members currently

based restrictions and prevent CAI from

pay. (EGF No. 105-1 HIT 34, 44.) For a
separate fee of $195 per hour, CAI also

speaking because it is a corporation, (id.

agement needs." (Id. H 17.) In addition to
its current offerings, CAI wishes to provide "employment-related legal advice and

1IH 64-72); (4) its right to due process un-

1. Josh Stein became the Attorney General of

Rules of Civil Procedure, Josh Stein should,

the State of North Carolina on January 1,

therefore, be substituted for Roy Cooper as a

2017. Pursuant to Rule 25(d) of the Federal

defendant in this suit. Fed. R. Civ. P. 25(d).

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.Sd 374 (M.D.N.C. 2017)

379

der the Fourteenth Amendment on the

"to weigh the evidence and determine the

ground that the UPL Statutes are vague,
(id. HH 73-82); (6) its right to free speech
on the ground that the UPL Statutes proMbit CAI from advertising its proposed
legal services, (id. HH 83-91); and (6) the
Monopoly Clause of the North Carolina
Constitution, (id. HIT 92-99). On February
16, 2015, CAI sought a preliminary injunction, requesting that the Court enjoin

truth of the matter" but rather "to deter-

State Prosecutors from taking any action

that would interfere with CAI offering or
delivering legal advice and services to its
members through CAI attorneys licensed
to practice law. (ECF No. 19 at 1.) State
Prosecutors moved to dismiss CAI's
claims. (ECF No. 10.)
The Court heard oral arguments on the
motions on May 29, 2015. On September 4,
2015, this Court entered a Memorandum
Opinion and Order ("Preliminary Injunction Order"), denying CAI's motion for a

preliminary injunction, and denying State
Prosecutors' motion to dismiss. Capital

mine whether there is a genuine issue for
trial." Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 249, 106 S.Ct. 2505, 91 L.Ed.2d

202 (1986). "If the evidence is merely colarable, or is not significantly probative,
summary judgment may be granted." Id.

at 249-60, 106 S.Ct. 2606 (citations omitted). When reviewing a motion for summai-y judgment, the court must "resolve all
factual disputes and any competing, rational inferences in the light most favorable"
to the nonmoving party. Rossignol v.

Voorhaar, 316 F.3d 516, 523 (4th Cir.
2003). When, as here, a court has before it
cross-motions for summary judgment, "the
court must review each motion separately
on its own merits" to determine whether

each party is entitled to judgment as a
matter of law. Id.

III. DISCUSSION

Associated Indus., Inc. v. Cooper, 129

State Prosecutors have moved for sum-

F.Supp.Sd 281, 308 (M.D.N.C. 2015). State

mai'y judgment on jurisdictional grounds
and on CAI's right of association claim

Prosecutors later moved for judgment on
the pleadings, and the Court entered an

only. (ECF No. 100.) CAI and the State

Order that denied that motion. Capital

Bar have each moved for summary judg-

Associated Indus., Inc. v. Cooper, No.

1:15CV83, 2016 WL 6776484, at *2

ment on each of the six claims brought by
GAL (ECF Nos. 103,112.) As State Prose-

(M.D.N.C. June 23, 2016). Each Party has

cutors raise the threshold issue of whether

now moved for summary judgment. (ECF

the Court can consider CAI's claims, the

Nos. 100,103,112.)

Court will fu-st consider theu- motion.

II. LEGAL STANDARD
Summary judgment is appropriate when
"the movant shows that there is no genu-

ine dispute as to any material fact and the
movant is entitled to judgment as a matter

A. State Prosecutors' Motion for
Summary Judgment

1. Standing and Ripeness

of law." Fed. R. Civ. P. 56(a). A dispute is

[1-5] State Prosecutors argue that
CAI cannot satisfy the requirements of

"genuine" if the evidence would permit a

standing doctrine or ripeness doctrine be-

reasonable jury to fmd for the nonmoving
party, and "[a] fact is material if it might
affect the outcome" of the litigation. Ja-

cause CAI did not face a credible threat of
prosecution before it brought suit (ECF
No. 101 at 6-20.) CAI contends that it does

co&s v. N.C. Admin. Office of the Courts,

have standing to sue on the ground that

780 F.3d 562, 668 (4th Cir. 2015) (quotations omitted). The role of the court is not

such a threat exists. (ECF No. 117 at 4-

11.) The Court observes that "the Article

380

283 FEDERAL SUPPLEMENT, 3d SERIES

Ill standing and ripeness issues in this

violation, in order to have standing to chal-

case 'boil down to the same question.'"2

lenge its constitutionality." Does 1-5 v.

See Susan B. Anthony List v. Driehaus,

Cooper, 40 F.Supp.Sd 657, 671-72

U.S. —, 134 S.CT. 2334, 2341 n.6, 189

(M.D.N.C. 2014); see Medlmmune, Inc.,

L.Ed.2d 246 (2014) (quoting Medlmmune,

549 U.S. at 129, 127 S.Ct. 764 ("The plaintiffs own action (or inaction) in failing to
violate the law eliminates the imminent

Inc. v. Genentech, Inc., 549 U.S. 118, 128
n. 8, 127 S.Ct. 764, 166 L.Ed.2d 604

(2007)). Accordingly, the Court will consider State Prosecutors' arguments concerning standing and ripeness simultaneously,
characterizing the discussion as one involving "standing."

threat of prosecution, but nonetheless does

not eliminate Article III jurisdiction.").
The Court concludes that GAI has
standing to bring its claims because it
faces a credible threat of prosecution un-

[6-8] Article III limits the jurisdiction

der the UPL Statutes. The Court's justifi-

of federal courts to cases and controver-

cation for this conclusion remains un-

sies. U.S. Const. art. Ill, § 2. Standing

changed from the Court's earlier ruling on

doctrine is "[o]ne element of the case-or-

this issue:

controversy requirement," and a plaintiff

that invokes federal jurisdiction must accordingly establish standing to sue. Clapper v. Amnesty Int'l, 568 U.S. 398, 133

S.Ct. 1138,1146, 185 L.Ed.2d 264 (2013). A
plaintiff has standing upon demonstrating
an injury that is "concrete, particularized,
and actual or imminent; fairly traceable to

the challenged action; and redressable by
a favorable ruling." Id. at 1147. A plaintiff
has standing to bring a "pre-enforcement

challenge" to a statute when the plaintiff
"faces a credible threat of prosecution"
under that law. N. C. Right to Life, Inc. v.

Bartlett, 168 F.3d 705, 710 (4th Cir. 1999).

State Prosecutors have not stated that
they would refrain from prosecuting

CAI for violating the UPL Statutes. Nor
have State Prosecutors stated that they
disagree with the State Bar's proposed
ethics opinion issued to CAI. To the
contrary, State Prosecutors and the

State Bar vigorously contend that CAI
lacks the right to provide its members
with legal advice and services. GAI need

not subject itself to criminal prosecution
to establish standing to challenge the
UPL Statutes.... With the injury-in-

fact requirement satisfied, CAI clears

Further, when "the State has not dis-

the other two hurdles for standing: cau-

claimed any intention of enforcing" the
challenged statute, a plaintiff "need not

sation and redress ability.
Capital Associated Indus., Inc., 129

actually violate" that statute, "or be proac-

F.Supp.Sd at 301-02. State Prosecutors ad-

lively threatened with prosecution prior to

vance several related, yet equally unavail-

2. As the Supreme Court has explained, "[t]he

zable injury that will occur in the future to be

justiciability problem that arises, when the

imminent. Lujan v. Defs. of Wildlife, 504 U.S.

party seeking declaratory relief is himself pre-

555, 560, 112 S.Ct. 2130, 119 L.Ed.2d 351

venting the complained-of-mjury from occur-

(1992). Similarly, ripeness doctrine requires

ring, can be described in terms of standing

courts to ask whether a plaintiff will suffer

... or in terms of ripeness." Med/mmune,

some hardship if the court declines to consid-

Inc. v. Genentech, Inc., 549 U.S. 118, 128 n.8,

er an issue at a certain time. Doe v. Va. Dep't

127 S.Ct. 764, 166 L.Ed.2d 604 (2007). As

of State Police, 713 F.3d 745, 758 (4th Cir.

applied to this factual scenario, the immi-

2013). Thus, when evaluating the cognizabili-

nence requirement of standing doctrine and

ty of a future injury, both doctrines ask courts

the hardship prong of ripeness doctrine re-

to determine whether that prospective harm

quire courts to conduct similar inquiries. For

will affect the plaintiff soon enough to justify

example, standing doctrine requires a cogni-

the invocation of federal jurisdiction.

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.Sd 374 (M.D.N.C. 2017)

381

ing, arguments to counter the conclusion

rized practice of law. (See ECF No. 42-2.)

that CAI faces a credible threat of prose-

This conclusion by the State Bat" is suffi-

cution. (ECF No. 101 at 6-15.)

cient to subject CAI to criminal liability

State Prosecutors contend that CAI

under North Carolina law and thus estab-

lacks standing because (1) the record con-

lish a threat of prosecution. See N.C. Gen.

tains no evidence of a pending prosecution

Stat. § 84-7.3 Third, the fact that North

against CAI, (id. at 7; see id. at 12-13);
(2) CAI's plan is insufficiently specific, (id.
at 7-8; 15-16); (3) the record contains no

Carolina has not prosecuted a business

law is immaterial to the standing inquiry.4

evidence of UPL prosecutions of "licensed

Fourth, the question of -whether North

attorneys, business association or corpora-

Carolina law allows district attorneys to

tion attorneys by the Attorney General or
these two District Attorneys," (id. at 7;
see id. at 11); (4) North Carolina law does

disavow their enforcement of state law is
have not refused to enforce the UPL Stat-

not allow prosecutors to agree to refrain

utes, CAI faces a credible threat of prose-

association for the unauthorized practice of

also irrelevant. Since State Prosecutors

from enforcing the law, (id. at 13-15; 17-

cution. Finally, contrary to State Prosecu-

20); and (5) CAI has provided no evidence
to support its "theory that the State Bar,

tors' contention, the Court concludes that

or any other person, association or entity

district attorneys to indict individuals or
entities who allegedly violate the UPL

can make a referral to the Attorney Gen-

North Carolina law requires the State's

eral or a District Attorney, and have that

Statutes once a district attorney receives

referral automatically result in a prosecu-

notice of the alleged violation. See Disci- '

tion for" the unauthorized practice of law,

plinary Hearing Comm'n v. Frazier, 364

(ECF No. 101 at 16-17).

N.C. 565, 556 S.E.2d 262, 264 (2001) ("The

[9] The Court does not find State

duty imposed on district attorneys by

Prosecutors' arguments persuasive. First,

N.C.G.S. § 84-7 is not to be ignored.").

CAI is not required to submit evidence

The Court concludes that CAI does have

that it faces a pending prosecution in order

standing as a matter of law and thus State

for the threat of prosecution to be credible.

Prosecutors have failed to carry then' bur-

CAI could only satisfy such a requirement
by engaging in the prohibited conduct,

not entitled to summary judgment on ju-

which the law does not require it to do. See

risdictional grounds.

Medlmmune, Inc., 549 U.S. at 128-29, 127
S.Ct. 764. Second, CAI's plan is sufficiently

den. Accordingly, State Prosecutors are

2. Right of Association

specific to allow the State Bar to conclude

[10] The Court will next address State

that the plan would constitute the unautho-

Prosecutors' right of association argument

3. N.C. Gen. Stat. § 84-7 states that: "[U]pon

(1961), to support this argument. (ECF No.

the application of any member of the Bar, or

101 at 8.) In Poe, the Supreme Court conclud-

of any bar association, of the State of North

ed that a state's decision not to enforce a

Carolina ... it shall be the duty of the district

statute over an eighty-year period renders the

attorneys of this State to indict any person,

threat of prosecution too speculative to satisfy

corporation, or association of persons upon
the receipt of information of the violation of

federal jurisdictional requirements. Poe, 367

the [UPL Statutes]." N.C. Gen. Stat. § 84-7

(emphasis added).
4. State Prosecutors rely on Poe v. Ullman,
367 U.S. 497, 81 S.Ct. 1752, 6 L.Ed.2d 989

U.S. at 508, 81 S.Ct. 1752. However, Poe does
not support the State Prosecutors' argument
because State Prosecutors acknowledge that
the State has prosecuted individuals under
the UPL Statutes. (ECF No. 101 at 11.)

382

283 FEDERAL SUPPLEMENT, 3d SERIES

because State Prosecutors' argument rests

Injunction Order, the Court also stated
that it "d[id] not foreclose the possibility
that the activities CAI and its members
wish to undertake may be entitled to First

on different grounds. State Prosecutors

Amendment protection." Id. at 292. The

contend that they are entitled to summary
judgment on CAI's right of association

right of association protected under the

The Court will address this argument separately from its discussion of the cross-

motions brought by CAI and the State Bar

First Amendment extends beyond margin-

claim solely because, according to them,

alized individuals who are denied access to

CAI has not produced any evidence "to

the courts. See Roberts v. U.S. Jaycees,

support CAI's efforts to categorize its

468 U.S. 609, 622, 104 S.Gfc 3244, 82
L.Ed.2d 462 (1984) (concluding that the

members as 'marginaKzed individuals who
were actually being denied channels to vin-

dicate rights.'" (ECF No. 101 at 15 (quoting Capital Associated Indus., Inc., 129

F.Supp.Sd at 293).) CAI does not respond
directly to this contention. CAI merely
states that: "Although the State raises
several arguments, the theme of its chal-

lenges is the familiar refrain that CAI
lacks standing in this case." (ECF No. 117
at 4.)

[11] It appears that State Prosecutors

right of association protects efforts to join
"with others in pursuit of a wide variety of
political, social, economic, educational, religious, and cultural ends"). Accordingly, the
Court concludes that State Prosecutors

have not met their burden of showing that
they are entitled to judgment as a matter
of law on CAI's right of association claim.

Having concluded that State Prosecutors
have failed to carry then- burden on the
two issues raised in their motion, the

may have misconstrued the Court's Pre-

Court -will deny State Prosecutors' motion

liminary Injunction Order, in which the
Court concluded that "[playing more than

for summary judgment.

desired for the assistance of outside counsel does not place CAI and its employermembers in the same category as union
workers, minorities, or other marginalized

individuals who -were actually being denied
channels to vindicate rights protected by
the United States Constitution or federal
law." Capital Associated Iiidus., Inc., 129
F.Supp.Sd at 293. In raising this argument,
State Prosecutors appear to construe that

conclusion as a rule that CAI must satisfy
in order to prevail on its right of associa-

B. Cross-Motions for Summary

Judgment
The Court next turns to the cross-mo-

tions for summary judgment brought by
CAI and the State Bar.5 Each party has
moved for summary judgment on each of

the six claims brought by CAI.
At the outset, the Court recognizes that
CAI has brought an as-applied challenge
with respect to each of its claims. (ECF
No. 1 H4; ECF No. 125 at 2 n.l.) The

tion claim. However, in the Preliminary

State Bar argues, however, that even

5. State Prosecutors respond to CAI's motion

not abandoned its claims as it has briefed

by contending that CAI has abandoned its

each issue. See Newton v. Astrue, 559

claims on the grounds that CAI's Motion and

F.Supp.2d 662, 670 (E.D.N.C. 2008) (conclud-

accompanying brief "do not mention the

ing that a litigant abandoned her claim when

State prosecutors in argument . .. and offer

she "ha[d] not briefed [an] issue," and had

no evidence in support of CAIs claims

not "presented it to the Court with any sup-

against State Prosecutors. (ECF No. 118 at 5.)

porting discussion, argument, or authority").

State Prosecutors further contend that CAI

The Court also reiterates its conclusion that

lacks standing and that its claims are not ripe.

CAI has standing to bring each claim and that

(Id. at 6.) The Court concludes that CAI has

each claim is ripe.

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.Sd 374 (M.D.N.C. 2017)

383

though CAI cannot succeed on its constitu-

Due Process Clause has "procedural and

tional claims (whether they are construed

substantive components." Plyler v. Moore,

as facial or as applied), CAI has presented
insufficient facts for the Court to consider
CAI's claims on an as-applied basis. (See

100 F.3d 365, 374 (4th Oil-. 1996). When a
plaintiff alleges that a state legislative act
violates a right entitled to substantive due

EGF No. 123 at 6-7.) The Court agrees

process protection, a court must engage in

-with the State Bar's observation that CAI

a two-step inquiry. Hawkins v. Freeman,

appears to prefer a limited record. Nonetheless, while this Court previously con-

195 F.3d 732, 739 (4th Cir. 1999). A court
must first determine whether the right

eluded that the record was too "skeletal"

that was allegedly violated is "one of 'those

for CAI to meet its burden of demonstrat-

fundamental rights and liberties which are,
objectively, deeply rooted in this Nation's
history and tradition' and 'implicit in the

ing a clear likelihood of success on the
merits, as was required to prevail on its
motion for a preliminary injunction, see

concept of ordered liberty, such that nei-

Capital Associated Indus., Inc., 129

ther liberty nor justice would exist if they

F.Supp.Sd at 296, the Court concludes that

were sacrificed.' " Id. (quoting Washington

the record is adequate to consider CAI's

v. Glucksberg, 521 U.S. 702, 720-21, 117

as-applied challenge at this stage of the

S.Ct. 2258, 138 L.Ed.2d 772 (1997)). The

proceedings. Moreover, the Supreme

second step depends on the outcome of the

Court has expressed a strong preference

first. Id. If the court determines that the

for avoiding facial challenges. See Rich-

state action implicates one of those funda-

mond Med. Ctr. for Women v. Hei'ring,

570 F.3d 165, 173 (2009) (citing- Wash.

mental rights or liberties, the court must
apply strict scrutiny to the challenged ac-

State Grange v. Wash. State Republican

tion. Id. If the state action implicates a

Party, 552 U.S. 442, 460-51, 128 S.Ct.

right that is neither fundamental nor enu-

1184, 170 L.Ed.2d 161 (2008)). The Court
will consider CAI's as-applied challenge to

merated, the challenged state action is

each of its claims.

which "is quite deferential," Colon Health

1. Substantive Due Process

subject to rational basis review, see id.,
Ctrs. of Am., LLC v. Hazel, 733 F.Sd 535,

[12] CAI argues that North Carolina's

648 (4th Cu-. 2013). The asserted liberty
interest in this case, namely, the right of a

UPL Statutes, as applied to CAI, violate

trade association to provide legal services

CAI's right to substantive due process be-

to its members, is not an enumerated

cause the statutes are not rationally relat-

responds that the UPL Statutes are ra-

right, nor has it been identified as a fundamental right. CAI does not ask this Court
to hold that this right is a fundamental
right. The Court will therefore apply ra-

tionaUy related to North Carolina's inter-

tional basis review.

ed to any legitimate governmental interest.

(ECF No. 104 at 20-22.) The State Bar

est in avoiding potential "conflicts of interest and loyalty," as well as its interest in
avoiding the "impairment of attorney independence." (ECF No. 113 at 7-11.)

[15,16] A challenged state action -will
survive rational basis review if it is "ra-

tionaUy related to legitimate government
interests." Glucksberg, 521 U.S. at 728,117

[13,14] Under the Due Process Clause

S.Ct 2258. This deferential standard does

of the Fourteenth Amendment, "[n]o State

not require "mathematical precision in the

shall ... deprive any person of life, Uber-

fit between justification and means." Star

ty, or property, without due process of

Sci., Inc. v. Beales, 278 F.3d 339, 348 (4th

law." U.S. Const. amend. XIV, § 1. The

Cu-. 2002) (quoting Concrete Pipe & Prods.

384

283 FEDERAL SUPPLEMENT, 3d SERIES

of Cal., Inc. v. Constr. Laborers Pension

law, as applied to CAI, survives rational

Tr. for S. Col., 508 U.S. 602, 639, 113 S.Ct.

basis review.7

2264, 124 L.Ed.2d 639 (1993)). Rather, "[i]t
is enough that there is an evil at hand for
correction, and that it might be thought

The Court is not persuaded by CAI's
four arguments that the UPL Statutes

that the particular legislative measure was
a rational way to correct it." Id. (quoting
Willwmson v. Lee Optical of Okla,., Inc.,

348 U.S. 483, 488, 75 S.Ct 461, 99 L.Ed.
563 (1956)). This Court's task, therefore, is
limited to evaluating whether North Garolina's chosen means of furthering its legitimate interests is "at least reasonably related to their promotion and protection."
Glucksberg, 521 U.S. at 735, 117 S.Ct.

2268.
The State Bar has identified two legitimate state interests that the UPL Statutes
further. Those interests include avoiding
"conflicts of interest and loyalty, and impamnent of attorney independence."6

(ECF No. 113 at 8.) The Court concludes
that the UPL Statutes are reasonably re-

lated to the promotion of these legitimate
interests. North Carolina could rationally
decide that non-lawyers would be more
likely than lawyers to encourage the attor-

neys whom they supervise to violate the
ethical canons that govern the legal profession. See Jacoby & Meyers, LLP v. Presid-

ing Justices, 852 F.3d 178, 181, 191-92 (2d
Cir. 2017) (concluding that New York law,
which "prohibits non-attorneys from investing in law &ms . .. easily pass [es]
muster under rational basis review" because "the regulations preclude the creation of incentives for attorneys to violate
ethical norms, such as those requirmg attorneys to put their clients' interests fore-

cannot survive rational basis review, based
on its contention that "[t]he facts underly-

ing the general prohibition against trade
associations offering legal services are not
conceivably true." (ECF No. 104 at 21.)
First, CAI argues that "there is no harm

to [its] members or the public if the trade
association's attorneys comply with then'

ethical obligations; and North Carolina
presumes that attorneys will comply with
their ethical obligations." (Id.; see id. at
14-15.) However, the State can reasonably
conclude that an attorney who is supervised by a non-attorney would be more

likely to violate those ethical obligations,
irrespective of any presumption that the
State might have about the conduct of
supervised attorneys. Second, CAI contends that "there is no evidence supporting
the existence of the public-interest con-

cerns [underlying the UPL Statutes] at
trade associations." (Id. at 21; see id. at
14.) However, the State is under no obli-

gation to submit evidence supporting the
reasonableness of its legislative choice. See

Bostic v. Schaefer, 760 F.3d 352, 393 (4th
Gil'. 2014) (noting that on rational-basis
review, "[a]s long as [the legislature] has a
reasonable basis for adopting the classification, which can include rational specula-

tion unsupported by evidence or empirical
data, the statute will pass constitutional
muster" (second alteration in original)
(quotation marks omitted)).

most"). Accordingly, North Carolina's pro-

Nor is the Court persuaded by CAI's

hibition on the unauthorized practice of

third argument that "the record shows

6. Relatedly, the North Carolina Supreme

general welfare. State v. Pledger, 257 N.C.

Court has observed that North Carolina's ban

634, 127 S.E.2d 337, 339 (1962).

on the corporate practice of law by entities
not managed by attorneys furthers the State s

7. The Court rejects CAI's contentions that the

legitimate interest in providing for "the better

UPL Statutes do not further any public inter-

security of the people against incompetency

est concern, and that no such concern applies
to CAI. (See ECF No. 104 at 12-14.)

and dishonesty in an area of activity affecting

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.3d 374 (M.D.N.C. 2017)

that North Carolina has determined that

385

its substantive due process claim. The

the public-interest concerns are tolerated

State Bar has met its burden and is ac-

for attorneys in other contexts." (ECF No.

cordtngly entitled to judgment as a matter

104 at 21; see id. at 15-17.) The Court wiU

of law on this claim.

not consider evidence that compares CAI
to other entities that are allowed to pro-

2. Freedom of Speech

vide legal services under North Carolina's

UPL Statutes. Such an inquiry necessarily

[17] CAI next argues that the UPL
Statutes violate the freedom of speech

entails a higher level of scrutiny than ra-

guaranteed by the First Amendment, as

tional basis review permits the Court to

appUed to its proposed provision of legal

apply. See Romer v. Evans, 517 U.S. 620,

services. (ECF No. 104 at 27-32.) Specifi-

632, 116 S.Gt. 1620, 134 L.Ed.Zd 856 (1996)

cally, CAI argues that the UPL Statutes
restrict CAI's speech on the basis of its
content; that the UPL Statutes prohibit
CAI from speaking on the basis of its
corporate identity; and that this restric-

("In the ordinary case, a law will be sus-

tained if it can be said to advance a legitimate government interest, even if the law
seems unwise or works to the disadvantage of a particular group."). Finally, the

Court is not persuaded by CAI's fourth
argument that "North Carolina has the
ability to regulate trade associations' legal
services through the Rules of Professional
Conduct, a registration scheme, and in-

junctive reUef." (ECF No. 104 at 21; see
id. at 17-18.) The fact that North Carolina
could have chosen an alternate means to

further its legitimate interests does not
disturb the conclusion that its chosen
means is reasonable.8 See Schweiker v.
Wzlson, 450 U.S. 221, 235, 101 S.Ct. 1074,

67 L.Ed.2d 186 (1981) (concluding that under rational basis review, as long as the
state's chosen means "rationally advances
a reasonable and identifiable governmental

objective, [the Court] must disregard the
existence of other methods that" the Court
"perhaps would have preferred").

In sum, the Court concludes that CAI
has not met its burden of showing that it is
entitled to judgment as a matter of law on

tion on its speech cannot survive strict
scrutiny. (Id. at 28-32.) The State Bar

argues that the UPL Statutes operate as
permissible regulation of a profession and

not a restriction on speech that is entitled
to First Amendment protection. (ECF No.
113 at 28.)
The First Amendment, as applied to the
states through the doctrine of incorporation, establishes that a state "shall make
no law ... abridging the freedom of
speech." U.S. Const. amend. I; Cantwell v.
Connecticut, 310 U.S. 296, 303, 60 S.Ct.

900, 84 L.Ed. 1213 (1940). This prohibition
of state infringement on the freedom of
speech does not, however, entitle every
communicative act to constitutional protec-

tion. The Fourth Circuit has held that
under the professional speech doctrine, "a
state's regulation of a profession raises no

First Amendment problem where it
amounts to 'generally applicable licensing
provisions' affectmg those who practice the
profession." Moore-King v. Cty. of Ches-

8. CAI also contends that it could implement

and establish attorney oversight over any ad-

a governing structure that will confirm and

vertising for legal services." (ECF No. 104 at

protect its attorneys' adherence to the Rules

18.) These purported safeguards do not alter

of Professional Conduct, ensure that its attor-

the Court's conclusion for the same reason:

neys have control over the legal services they

this alternative method of furthering the

provide, establish conflict-screening proce-

state s legitimate interests does not render

dures, ensure that confidential communica-

North Carolina's chosen means unreasonable.

tions and client information are preserved,

386

283 FEDERAL SUPPLEMENT, 3d SERIES

terfield, 708 F.3d 560, 569 (4th Cu\ 2013)

lar members in the light of those members'

(quoting Lowe v. SEC, 472 U.S. 181, 232,
105 S.Ct. 2557, 86 L.Ed.2d 130 (1986)

individual needs and circumstances. See

CWhite, J., concurring)); see Accountant's

not plan to engage in "public discussion

Soc'y ofVa. v. Bowman, 860 F.2d 602, 604

and commentary," id., through the provi-

(4th Cir. 1988) ("Professional regulation is
not invalid, nor is it subject to first amend-

sion of its legal services. Further, the UPL

ment strict scrutiny, merely because it re-

'generally applicable licensing provisions,' "

stricts some kinds of speech.").

id. (quoting Lowe, 472 U.S. at 232, 106

The Fourth Circuit has discussed the
appropriate test to determine whether the
professional speech doctrine applies in
Moore-King v. County of Chesterfield, 708
F.3d 660 (4th Cu~. 2013), and Accountant's
Society of Virginia v. Bowman, 860 F.2d
602 (4th Cir. 1988). These cases instruct
that if a speaker "takes the affairs of a
client personally in hand and purports to
exercise judgment on behalf of the client in
the light of the client's individual needs

Moore-King, 708 F.3d at 569. GAI does

Statutes, as applied to CAI, "amount to

S.Ct. 2557 (White J., concun-mg)). Any
"[p]i'ofessional corporation" that seeks to

provide legal services in North Carolina
can render those services "subject to the

applicable rules and regulations adopted
by ... the licensing board," which in this
case, is the North Carolina State Bar. N.C.

Gen. Stat. §§ 65B-2(4)-(6), 55B-12(a).
Therefore, the professional speech doctrine applies in this case. Accordingly, as

applied to CAI, the UPL Statutes operate

and cu-cumstances," then the statute oper-

as professional regulation that is not sub-

ates as professional regulation that is not

ject to First Amendment scrutiny on free-

subject to First Amendment scrutiny.

dom of speech grounds.9

Moore-King, 708 F.3d at 569 (quoting

CAI argues that its proposed legal ser-

Bowman, 860 F.2d at 604). In contrast, if a

vices are pure speech, as opposed to con-

speaker "does not purport to be exercising

judgment on behalf of any particular individual," Bowman, 860 F.2d at 604 (quoting

duct (ECF No. 104 at 28-30), however this
distinction is immaterial. CAI contends
that its provision of legal services would

Lowe, 472 U.S. at 232, 105 S.Ct. 2557

constitute speech, and not conduct, be-

(White, J., concurring)), but instead "en-

cause it will be required to communicate in

gages in public discussion and commen-

order to provide its proposed services.

tary," then the statute operates as a re-

(Id.) There is no question that CAI's provi-

striction on speech that is subject to First

sion of legal services would require it to

Amendment scrutiny, Moore-King, 708

communicate with its member-cliente.

F.3d at 669. Accordingly, under this test, a

Rather, the question in this case is wheth-

statute either operates as professional reg-

ulation that is not subject to First Amend-

er the type of communication that the
UPL Statutes restrict is entitled to Fu-st

ment scrutiny, or a restriction on speech

Amendment protection. For the reasons

that is subject to First Amendment scruti-

stated above, the Court concludes that

ny. See Moore-King, 708 F.3d at 569.

CAI's proposed communicative acts fall

CAI seeks to provide legal services to
individual members, which will require it

under the professional speech doctrine and

to exercise judgment on behalf of particu-

ment protection.

are therefore not entitled to Fu-st Amend-

9. The Court will not analyze the UPL Statutes

for fortune tellers under the professional

as content-based restrictions, as CAI contends

speech doctrine and not as a content-based

that the Court should. See Moore-King, 70S

restriction).

F.3d at 567-70 (analyzing a licensing scheme

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.3d 374 (M.D.N.C. 2017)

387

CAI also argues that the UPL Statutes

CAI has failed to cairy its bm-den that it

violate freedom of speech because the stat-

is entitled to judgment as a matter of law

utes impermissibly prohibit CAI from
speaking on the basis of its identity as a

the State Bar has met its burden.

on its freedom of speech claim. Conversely,

corporation. (ECF No. 104 at 30-31.) The
Court rejects this assertion for two reasons. First, as stated above, the UPL Statutes operate as professional regulation

that is not subject to Fu-st Amendment
scrutiny under Fourth Cu-cuit precedent.
Therefore, no First Amendment bar to
government regulation of speech on the
basis of a speaker's corporate identity

could apply in this case. Cf. Citizens United v. FEC, 558 U.S. 310, 364,130 S.Ct. 876,

175 L.Ed.2d 753 (2010). Second, to the
extent that any First Amendment bar to
regulatory distinctions based on a speaker's corporate identity could apply to prohibit professional regulation as a general
matter, that Fu-st Amendment bar would
present no issue in this case. North Car-

oUna does not bar CAI from providing
legal services "solely because CAI is a

corporation," (ECF No. 104 at 30), as CAI
contends. The UPL Statutes do "not apply

3. Right of Association
[18] CAI next argues that its members
have a constitutionally protected right to
associate to provide group legal services,
relying on a line of Supreme Court cases

that it characterizes as NAACP v. Button
and its progeny,10 to support this argument. (ECF No. 104 at 22-23.) Further,

CAI argues that North Carolina's infringement of that right cannot survive strict
scrutiny. (Id. at 26-27.) The State Bar

counters that NAACP v. Button and its
progeny do not extend the right of associa-

tion to protect CAI and its plan to provide
legal services because CAI's goals are to
increase revenue and reduce its members'
expenses, which are not entitled to consti-

tutional protection. (ECF No. 113 at 1228.)
The Supreme Court has recognized the

to corporations authorized to practice law

right to associate as a means of protecting

under the provisions of Chapter 55B of the

the freedom to engage collectively in activ-

General Statutes of North Carolina." N.G.

ities that are entitled to Fu-st Amendment

Gen. Stat. § 84-5(a) (emphasis added).

protection. Roberts, 468 U.S. at 622, 104

North Carolina permits corporations to

S.Ct. 3244 ("[W]e have long understood as

provide legal services, subject to the

implicit in the right to engage in activities

state's ordinary regulation of the legal pro-

protected by the First Amendment a cor-

fession. Id. §§ 55B-2(4)-(6), 55B-12(a).
Thus, CAI's corporate identity poses no

responding right to associate with others
in pursuit of a wide variety of political,

bar to its ability to engage in professional

social, economic, educational, religious, and

speech, which nonetheless remains unpro-

cultural ends."). In NAACP v. Button and

tected by the First Amendment.

its progeny,11 the Supreme Court held that

10. The following cases comprise the line of

Union v. State Bar of Michigan, 401 U.S. 576,

cases that CAI references as "NAACP v. But-

91 S.Ct. 1076, 28 L.Ed.2d 339 (1971), and In

ton and its progeny": NAACP v. Button, 371

rn Primus, 436 U.S. 412, 98 S.Ct. 1893, 56

U.S. 415, 83 S.Ct. 328, 9 L.Ed.2d 405 (1963),

L.EcUd 417 (1978).

Brotherhood of Railroad Traimnen v. Virginia
ex rd. Virginia State Bar, 377 U.S. 1, 84 S.Ct.

11. This Court in its Preliminary Injunction

1113, 12 L.Ed.2d 89 (1964), United Mine

Order engaged in a comprehensive discussion

Workers of America, District 12 v. Illinois Slate

of each of the cases that it refers to as

Bar Ass'n, 389 U.S. 217, 88 S.Ct. 353, 19

"NAACP v. Button and its progeny." The

L.Ed.2d 426 (1967), United Transportation

Court references that discussion for context

388

283 FEDERAL SUPPLEMENT, 3d SERIES

state actions that regulate the practice of
law violate the right of association when

such a group, association for litigation may

protected Fu'st Amendment activity. E.g.,

be the most effective form of political
association.") (emphasis added)); and (2)
the right to petition the government for

United Mine Workers of Am., Dist. 12 v.

redress of grievances, see United Transp.

III. State Bar Ass'n, 389 U.S. 217, 223, 88

S.Ct 353, 19 L.Ed.2d 426 (1967); Bhd. of

Union, 401 U.S. at 685, 91 S.Ct 1076
("[C]ollective activity undertaken to obtain

R.R. Trainmen v. Virginia ex rel. Va.

meaningful access to the courts is a fanda-

State Bar, 377 U.S. 1, 5-6, 84 S.Ct. 1113,

mental right within the protection of the
First Amendment"); see also United Mine

those laws burden the collective exercise of

12 L.Ed.2d 89 (1964). The challenged state
prohibitions in these cases took many different forms: the regulations included (1)
prohibitions on legal solicitation, In re Primus, 436 U.S. 412, 418-21, 98 S.Ct. 1893,

56 L.Ed.2d 417 (1978), Bhd. ofR.R. Trainmen, 377 U.S. at 4-5, 84 S.Ct 1113, But-

ton, 371 U.S. at 419, 83 g.Ct. 328; (2) a
prohibition on the unauthorized practice of
law, United Mine Workers, 389 U.S. at

218, 88 S.Ct 353; and (3) an injunction
that restrained a union from engaging in

various activities related to the provision of
legal services, United Transp. Union v.
State Bar of Mich., 401 U.S. 576, 579 n.4,

91 S.Ct. 1076, 28 L.Ed.2d 339 (1971). Despite the differences in the various regulations outlined in these cases, in each, the

prohibited state action operated to infringe, not only the right to associate, but
also the exercise of some correlating Fu'st
Amendment right. See, e.g., In re Primus,

436 U.S. at 431, 98 S.Ct. 1893. These First
Amendment rights included: (1) the right

Workers, 389 U.S. at 221-22, 88 S.Ct. 353

("We hold that the freedom of speech,
assembly, and petition guaranteed by the
First and Fourteenth Amendments gives
petitioner the right to hire attorneys on a
salary basis to assist its members in the

assertion of their legal rights." (footnote
omitted)); see also Bhd. of R.R. Train-

men, 377 U.S. at 5, 84 S.Ct. 1113 ("[T]he
First Amendment's guarantees of free
speech, petition and assembly give raih'oad

workers the right to gather together for
the lawful purpose of helping and advising
one another in asserting the rights Congress gave them.").
Here, North Carolina's prohibition un-

der the UPL Statutes as applied to CAI
and its' proposed provision of legal services does not violate the right of association because GAI's proposal would not fur-

ther the collective exercise of any activity
entitled to Fh'st Amendment protection.

to free speech, see In re Primus, 436 U.S.

CAI proposes to provide its members

at 431, 98 S.Ct. 1893 (concluding that the
appellant's activities "come[] within the

vices" that could include drafting employ-

"employment-related legal advice and ser-

generous zone of Fh'st Amendment protec-

ment, separation, and non-compete agree-

tion reserved for associational freedoms,"

ments, reviewing employment policies and

in part, because "[t]he ACLU engages in
litigation as a vehicle for effective political

handbooks, and representation before the

expression"); see also Button, 371 U.S. at

EEOC. (ECF No. 105-1 H 34, 44.) In addition, CAI alleges in its Complaint that it is

431, 83 S.Ct 328 ("The NAACP is not a
conventional political party; but the litiga-

by employing licensed attorneys to pro-

tion it assists .. . makes possible the dis-

tinctive contribution of a minority group to
the ideas and beliefs of our society. For

being precluded from "earning revenues

vide [this] legal advice and services to its
members." (ECF No. 1 H 98.) Unlike the
clear constitutional objectives advanced by

here. See Capital Associated Indus., Inc., 129 F.Supp.3d at 289-92.

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.Sd 374 (M.D.N.C. 2017)

Button and its progeny,, CAI has failed to
provide evidence that any activity for
which it claims a right to associate is deserving of Fu-st Amendment protection.
The proposed legal services would not inelude assistance with litigation or the via-

dlcation of any statutory rights. (ECF No.
106-1 at 64-67.) They would not further
the right to free speech pertaining to political expression as in Button and Pri-

389

derstands the term. (ECF No. 113 at 30-

33.)
[20, 21] A claim that a statute is voidfor-vagueness arises under the Due Process Clause. See Holder v. Humanitarian

Law Project, 561 U.S. 1, 18,130 S.Ct 2705,
177 L.Ed.2d 356 (2010). The statute wffl
violate due process on vagueness grounds
when it "fails to provide a person of ordi-

petition the government for redress before

nary intelligence fair notice of what is
prohibited, or is so standardless that it

a court or an agency as in United Trans-

authorizes or encourages seriously dis-

mus; nor would they further the right to

portatwn Union, Trainmen, or Mine

criminatory enforcement." Martin v.

Workers, by, for example, advising CAI

Lloyd, 700 F.3d 132, 135 (4th Cir. 2012)

members as to how they might vindicate
their constitutional or statutory rights.
CAI's characterization of Button and its

U.S. 286, 304, 128 S.Ct. 1830, 170 L.Ed.2d
650 (2008)). CAI contends that the UPL

(quoting United States v. Williams, 553

group legal services" overstates the

Statutes fail to provide sufficient notice of
the conduct prohibited by the term "legal
advice." (ECF 104 at 33.) Despite this

breadth of these holdings. (See ECF 104
at 23.)

term "legal advice" and has repeatedly

progeny as establishing a First Amendment right to undertake "a broad range of

Because CAI's proposed provision of le-

contention, CAI appears to understand the
used the term to describe its current and

gal services would not further the exercise

proposed activities. Bruce Clarke, CAI's

of any protected First Amendment activi-

President and CEO, demonstrated his un-

ty, CAI is not entitled to any correspond-

derstanding of that term in a 2013 commu-

ing First Amendment associational protec-

nication with the State Bar when he noted

tion merely because the activities would be
undertaken collectively. CAI has failed to
meet its burden on its right of association

that legal advice entails "applying a legal

claim. The State Bar is accordingly enti-

tion that he understands a "reasonable

tied to judgment as a matter of law on this
claim.

definition" of the term following his review
of the General Statutes. (ECF No. 113-1

4.. Vagueness

at 124-25.) In its Complaint, CAI alleges
that it currently provides its members

solution to specific facts." (ECF No. 42-1
at 2.) Further, he confirmed in his deposi-

[19] CAI next argues that the UPL

"non-legal advice" through its "Advice and

Statutes are unconstitutionally vague as

Resolution Team." (ECF No. 1 HH 18, 19.)

applied to its current and proposed activi-

Mr. Clarke also described the proposed
services that form the basis of this suit as

ties, (ECF 104 at 32-34), characterizing
them as "sweeping and opaque restrictions

offering "employment-related legal advice

that fail to give sufficient guidance as to

and services." (ECF No. 105-1 H 34, 44.)

what constitutes legal advice," (id. at 33).

Indeed, as argued by the State Bar, CAI's
Complaint alleges that CAI's attorneys are

The State Bar responds that the UPL
Statutes' prohibition on giving legal advice

" 'educated and licensed' -with respect to

is not vague, because the term "legal ad-

'giving legal advice,' and 'could render to

vice" is well-defined, and farther CAI un-

CAI members competent legal advice.' "

390

283 FEDERAL SUPPLEMENT, 3d SERIES

(ECF No. 113 at 31 (quoting ECF No. 1
1IU 34, 37) (emphasis omitted).) There is
little question that CAI understands that
the UPL Statutes prohibit CAI from offering legal advice as applied to its current

conduct that the term "legal advice" pro-

hibits, as applied to CAI's current and
proposed activities. See Humanitarian

Law Project, 561 U.S. at 21, 130 S.Ct. 2705
("[T]he dispositive point here is that the

and proposed activities. See Humanitari-

statutory terms are clear in then- applica-

an Law Project, 561 U.S. at 22, 130 S.Ct.

tion to plaintiffs proposed conduct, which

2705 (concluding that statutory terms challenged on vagueness grounds "readily and

naturally cover[ed] plaintiffs' conduct"
when the "plaintiffs themselves ha[d] re-

means that plaintiffs' vagueness challenge
must fail."). For the reasons outlined, the

State Bar is entitled to judgment as a
matter of law on this claim.

peatedly used the terms . .. throughout

th[e] litigation" to describe their own conduct).

[22] The Court is also not persuaded

5. Monopoly Clause

[23] CAI next contends that the UPL
Statutes, as applied to its proposed legal

by CAI's argument that "CAI cannot iden-

services, violate the Monopoly Clause of

tify the line between lawful compliance

the North Carolina Constitution.12 (ECF
No. 104 at 35-36.) CAI argues that the

advice and unlawful legal advice." (See
E OF No. 104 at 34.) The vagueness doc-

UPL Statutes, as applied, "merely protect

trine does not require "perfect clarity and

the economic interests of attorneys by

precise guidance," Ward v. Rock Against

sheltering attorney-owned entities from

Racism, 491 U.S. 781, 794, 109 S.Ct. 2746,

competition -with non-attorney-owned enti-

105 L.Ed.2d 661 (1989), rather it requires

ties." W. at 36.) The State Bar argues that

only "fair notice" of prohibited conduct,

Mm-tin, 700 F.3d at 135. Nor is the Court
persuaded by CAI's reliance on hypothetical situations mvolving the question of
whether the term "legal advice" could apply to prohibit a passenger from communi-

eating a speed limit to a driver. (See EGF
No. 104 at 33-34.) See Williams, 553 U.S.
at 306, 128 S.Ct. 1830 ("What renders a
statute vague is not the possibility that it
will sometimes be difficult to determine
whether the incriminating fact it establishes has been proved; but rather the
indeterminacy of precisely what that fact

North Carolina courts have concluded that

the UPL Statutes do not violate the Monopoly Clause, and that those decisions
bind this Court. (ECF No. 113 at 34-36.)
[24] A federal court hearing a statelaw claim is obligated to apply the law of
the state as interpreted by that state's
highest court. See Wetzel v. Edwards, 635

F.2d 283, 289 (4th Cir. 1980) ("[I]t is wellsettled that the federal courts are bound
by the interpretation placed on state statutes by the highest courts of the state.").

is."). Hypothetical situations unrelated to

The North Carolina Supreme Court has
twice held that the state's prohibition on

CAI's specific conduct are irrelevant to its

the corporate practice of law does not vio-

as-applied vagueness challenge. See Hu-

late the North Carolina Constitution. See

manitarian Law Project, 561 U.S. at 22-

Gardner v. N.C. State Bar, 316 N.C. 285,

23,130 S.Ct. 2705.

341 S.E.2d 517, 523 (1986) (concluding that
the prohibition of the corporate practice of
law does not violate "Article I of the
North Carolina Constitution"); Seawell v.

The Court concludes that CAI's vagueness claim lacks merit because there is no

question that CAI has fau- notice of the
12. The Monopoly Clause states that "[p]erpetuities and monopolies are contrary to the

genius of a free state and shall not be allowed." N.C. Const. art. I, § 34.

CAPITAL ASSOCIATED INDUSTRIES, INC. v. STEIN
Cite as 283 F.Supp.3d 374 (M.D.N.C. 2017)

Carolina Motor Club, 209 N.C. 624, 184
S.E. 540, 544 (1936) (concluding that the
prohibition of the corporate practice of law

391

In this case, CAI's Monopoly Clause
challenge fails for the same reasons articu-

lated by the North Carolina Supreme

"offends neither the State nor Federal

Court in State v. Call and St. George v.

Constitution"). While neither decision pre-

Hardie. See Assicurazioni Generali,

sented the precise legal question before

S.p.A. v. Neil, 160 F.3d 997, 1002 (4th Cu-.

the Court in the present case, namely,

1998) ("It is axiomatic that in determining

whether the Monopoly Clause of the
North Carolina Constitution tolerates the

state law a federal court must look first

state's prohibition on the corporate prac-

highest court, giving appropriate effect to

and foremost to the law of the state's

tice of law, as applied to CAI's proposed

all its implications. A state's highest court

legal services, the Court finds them in-

need not have previously decided a case

structive, though not dispositive.

with identical facts for state law to be
clear. It is enough that a fair reading of a

The Court finds more persuasive, how-

decision by a state's highest court directs

ever, two century-old opinions of the

one to a particular conclusion."). The UPL

North Carolina Supreme Court, -which up-

Statutes, as applied to CAI's proposal to

held the state's power to regulate two

provide legal services, regulate those per-

other professions against challenges that
those regulatory schemes violated the Mo-

sons and entities that North Carolina has
judged to be qualified to practice law and

nopoly Clause. In the first, State v. Call,

are "in no sense the creation of a monopo-

121 N.C. 643, 28 S.E. 517 (1897), the North
Carolina Supreme Court held that the

ly," Call, 28 S.E. at 517.

state's regulation of the medical profes-

sion, as applied to an individual who was
indicted for practicing without a license,
did not violate the Monopoly Clause. Call,

CAI does not discuss State v. Call and
St. George v. Hardie in its brief. (E OF No.

104 at 35-36.) Instead, CAI relies heavily
on a different case, State v. Ballance, 229

reasoned that the state can regulate "per-

N.C. 764, 61 S.E.2d 731 (1949), where the
North Carolina Supreme Court held that a
licensing scheme that applied to photogra-

sons desiring to practice law or medicine

phers offended the Monopoly Clause. Bal-

or exercise other callings, whether

lance, 51 S.E.2d at 736. The Court does

skilled trades or professions, affecting the
public and which require skill and profi-

not find State v. Bcdlance persuasive, how-

28 S.E. at 517. In so holding, the court

ever, as the North Carolina Supreme

ciency," and that such regulation "is in no

Court's conclusion that the licensing

sense the creation of a monopoly or special

scheme for photographers violated the M.O-

privileges." Id. In the second, St. George v.

nopoly Clause followed from its conclusion

Hardie, 147 N.C. 88, 60 S.E. 920 (1908),
the North Carolina Supreme Court held
that the State's regulation of "pilots and

that photography was "in essence, a private business unaffected in a legal sense
with any public interest." Id. at 735. The

pilotage" did not violate the Monopoly

legal profession, in contrast, could not be

Clause, reasoning that the power to regu-

more different. See Pledger, 127 S.E.2d at

late and license pilots "comes within the

339 (concluding that the UPL Statutes

principle upon which the state prescribes

were "not enacted for the purpose of con-

the qualifications of those who are admit-

ferring upon the legal profession an abso-

ted to practice law . .. and other callings
and professions so related to the public."

lute monopoly in the preparation of legal
documents; [the] purpose is for the better

St. George, 60 S.E. at 923.

security of the people against incompeten-

392

283 FEDERAL SUPPLEMENT, 3d SERIES

cy and dishonesty in an area of activity

State Bar, and not CAI, is entitled to

affecting general welfare"). The Court

judgment as a matter of law on this claim.

therefore finds that State v. Ballance does
not apply given the differences between

IV. CONCLUSION

that case and the present one. According-

ly, the Court concludes that the State Bar
is entitled to judgment as a matter of law
on this claim.
6. Commercial Speech

[25,26] Finally, CAI contends that the
UPL Statutes unconstitutionally prohibit
CAI from advertising legal services. (ECF
No. 104 at 34-35.) Specifically, CAI argues
that "[b]ecause CAI has a constitutional
right to offer legal advice and services to
its members, this prohibition is unconstitutional." (Id. at 34.) The State Bar argues,
on the other hand, that "[t]o have a colorable commercial speech claim [under the

First Amendment], CAI must establish
that 'the regulated speech concerns lawful
activity,' which it cannot do." (ECF No.

123 at 31 (quoting ECF No. 104 at 36).)
CAI and the State Bar agree that CAI's

For the reasons stated herein, State
Prosecutors have not carried their burden

of demonstrating that CAI lacks standing
or that State Prosecutors are entitled to
judgment as a matter of law on CAI's
right of association claim. State Prosecutors' motion, (ECF No. 100), must there-

fore be denied. CAI has not carried its
burden of demonstrating that it is entitled
to judgment as a matter of law on any of

its six claims; CAI's motion, (ECF No.
103), must, therefore, be denied. The State
Bar, however, has shown that it is entitled
to judgment as a matter of law on each of
CAI's claims. Because there is no genuine

issue of material fact as to any claim, the
Court concludes that the State Bar is enti-

tied to summary judgment and its motion,
(ECF No. 112), will be granted, thus dismissing this action.

commercial advertising claim turns on

CAI's contention that its provision of legal
services is lawful. (ECF Nos. 104 at 34-35;
113 at 33; 123 at 31.) Here, because CAI
has failed to establish that it has a consti-

ORDER
IT IS THEREFORE ORDERED that
State Prosecutors' Motion for Summary

Judgment, (ECF No. 100), is DENIED.

tutionally protected right to provide legal

IT IS FURTHER ORDERED that

services, doing so would constitute unlaw-

CAI's Motion for Summary Judgment,

ful activity under the UPL Statutes. The
Supreme Court in Central Hudson Gas &
Electric Corp. v. Public Service Commission of New York, 447 U.S. 557, 100 S.Ct.

2343, 65 L.Ed.2d 341 (1980), makes clear
that Fu-st Amendment protection of com-

(ECF No. 103), is DENIED.

IT IS FURTHER ORDERED that the
State Bar's Motion for Summary Judg-

ment, (ECF No. 112), is GRANTED, and
tMs case is therefore DISMISSED.

mercial speech can only apply when the

A Judgment dismissing this action will

underlying activity is lawful. Centr. Hud-

be entered contemporaneously with this

son Gas & Elec. Corp., 447 U.S. at 564,100

Order.

S.Ct. 2343; see Educ. Media Co. at Va.

Tech v. Insley, 731 F.3d 291, 298 (4th Cir.
2013). Thus, CAI has no First Amendment
right to advertise legal services since its
right to provide such services is unlawful
under the UPL Statutes. Accordingly, the

